                 PUBLIC
                RELEASE


              NATIONAL OCEANIC AND
        ATMOSPHERIC ADMINISTRATION

Administrative Support Centers Need Functional
  Realignment and Focus on Essential Services

               Inspection Report No. IPE-8569 / August 1997




               Office of Inspections and Program Evaluations
Department of Commerce                                                                                    Final Report IPE-8569
Office of Inspector General                                                                                         August 1997



                                                    Table of Contents

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION                 .........................................................1

PURPOSE AND SCOPE                     ....................................................1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

OBSERVATIONS AND CONCLUSIONS                                  ......................................6

I.     Lax Departmental Leadership Has Complicated ASC Operations                               . . . . . . . . . . . . 6

       A.   Oversight and Accountability Are Not Given Proper Attention                           .   .   .   .   .   .   .   .   .   .   .    7
       B.   CAMS Is Crucial to Commerce’s Administrative Services . .                             .   .   .   .   .   .   .   .   .   .   .   10
       C.   Conflicting Initiatives Complicate Administrative Operations .                        .   .   .   .   .   .   .   .   .   .   .   13
       D.   Client Exodus Highlights Department’s Diminished Role . . .                           .   .   .   .   .   .   .   .   .   .   .   14

II.    NOAA’s Management of ASCs Has Frequently Contributed to Their Problems . . . . . 19

       A. NOAA’s Investment in ASCs Has Been Declining . . . . . . . . . . . . . . . . . . 19
       B. NOAA Has Failed to Fully Meet Its Responsibility to Oversee
          and Evaluate ASC Operations . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

III.    ASC Budgets and Billing Methodology Warrant Management Attention . . . . . . . . 22

       A. Departmental Oversight of ASC Budgets Warrant Management Attention . . . . . 22
       B. NOAA Did Not Fully Support ASCs’ Funding Needs . . . . . . . . . . . . . . . . 23
       C. Outdated Billing Methodology Fosters Client Dissatisfaction . . . . . . . . . . . . 23

IV. ASC Services: Some Aspects Are Good, Others Need Improvements or
    Different Approaches . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

       A. ASCs Receive High Marks From Clients . . . . . . . . . . . . . . . . . . .                                              . . . 25
       B. Human Resources Divisions: Some Functions Should Be Consolidated,
          Automated, or Improved . . . . . . . . . . . . . . . . . . . . . . . . . . .                                            . . . 26
       C. Procurement Divisions: Changes and Consolidation Offer Opportunities
          to Improve Operations . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                         . . . 31
       D. Finance Divisions: Much of Their Workload Should Be Outsourced . . . . . .                                              . . . 36
       E. Systems Divisions: Major Improvements Possible . . . . . . . . . . . . . . .                                            . . . 44
       F. Facilities and Logistics Divisions: Varied Functions Require Varied Approaches                                            . . 46
Department of Commerce                                                                               Final Report IPE-8569
Office of Inspector General                                                                                    August 1997

        G. Major Changes Needed in MASC Site-Specific Functions . . . . . . . . . . . . . . 54
        H. ASC Deputy Director Positions Should Be Eliminated . . . . . . . . . . . . . . . 56
        I. Franchising Initiatives Should Not Be Expanded . . . . . . . . . . . . . . . . . . 56

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 62

APPENDICES:

       A. Some Site-Specific Observations and Conclusions:
          1. Eastern Administrative Support Center . . .     .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   65
          2. Central Administrative Support Center . . .     .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   66
          3. Mountain Administrative Support Center . .      .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   67
          4. Western Administrative Support Center . . .     .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   68

       B. Best Practices: Other Agencies’ Approaches to Delivering Administrative Services . . 69

       C. Supporting Data: ASC Budget History and Procurement Workload . . . . . . . . . . 73

       D. Prior Reports on Commerce Administrative Support           . . . . . . . . . . . . . . . . . 74

       E. Cost Estimate: Outsourcing Administrative Payments to the
          National Finance Center . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 77

ATTACHMENTS:

I.      Department’s Response to Draft Report, dated 5/5/97 . . . . . . . . . . . . . . . . . . 78

II.     NOAA’s Response to Draft Report, dated 5/28/97       . . . . . . . . . . . . . . . . . . . 81

III.     Department’s Followup Response to Draft Report, dated 6/26/97 . . . . . . . . . . . 94
Department of Commerce                                                          Final Report IPE-8569
Office of Inspector General                                                               August 1997

                                   EXECUTIVE SUMMARY

In 1983, the Department of Commerce’s Administrative Support Centers (ASCs) were created to
provide more cost-efficient administrative services for the Department’s numerous field units,
thereby relieving the bureaus of that burden, reducing duplication of administrative units, and
providing more effective services. Citing geographical considerations, Commerce officials
established ASCs in four cities: Seattle, Washington; Boulder, Colorado; Kansas City, Missouri;
and Norfolk, Virginia. Because the National Oceanic and Atmospheric Administration (NOAA)
is the largest Commerce bureau and has the most field offices, NOAA was selected to operate this
“Commerce” service, with substantial departmental operations oversight and direction.

In our evaluation of the ASCs, we sought to examine their efficiency and effectiveness in
supporting the Department’s field units, with a special emphasis on assessing (1) the management
oversight and leadership provided by NOAA and the Department and (2) the efficiency and
effectiveness of the ASCs’ current operations, as well as their future viability.

In this report, we highlight many of the issues and problems facing the four centers, NOAA, and
the Department. Our overall message is that the ASCs, their clients’ expectations, and the overall
delivery of administrative services throughout the Department’s field structure are changing
rapidly and dramatically. The changes are due to technological advances, organizational
realignments, budget cuts, and shifting policy and management initiatives, all of which are likely to
continue, and even intensify. Because of these changes and the ASCs’ uncertain status, senior
Commerce and NOAA officials must take actions to ensure that the administrative services for the
Department’s field units are provided as efficiently, economically, and effectively as possible.

Highlights of our observations, concerns, and recommended actions include the following.

Departmental Leadership and NOAA Management Voids
Have Complicated ASC Operations

In the early years of ASCs, strong departmental leadership and support, coupled with NOAA
officials’ keen interest in the ASCs, helped provide a vision for the delivery of administrative
services. Since then, the Department’s and NOAA’s histories with ASCs have been marked by
alternating periods of moderate and weak interest, followed in recent years by what have been
described as “crisis situations frequently plagued by leadership voids.” Such voids have fostered
inefficiencies, weakened the centers, and even resulted in one major bureau, Census, abandoning
the ASCs, and the International Trade Administration being on the verge of doing the same.
Furthermore, the leadership voids have allowed (1) Commerce bureaus to create or retain
headquarters administrative support staff with overlapping or duplicative responsibilities, and
(2) the ASCs to drift from their original objectives, operate with too little “Commerce” influence,
and face a steady erosion of funding and staffing resources. (See pages 6 and 19.)

                                                  i
Department of Commerce                                                        Final Report IPE-8569
Office of Inspector General                                                             August 1997

ASC Funding and Billing Issues Warrant Management Attention

In recent years, there has been significant client dissatisfaction with the ASCs’ billing
methodology. In response to client complaints, a July 1994 OIG special study was conducted at
the request of the Department to determine if ASC billings were fair and equitable. The study
was later expanded to include the NOAA budget process and management oversight. Although
the study confirmed that the non-NOAA clients were billed equitably, it also found that NOAA
made unilateral decisions about the amount of ASC funding, thereby affecting the level of services
offered. We remain concerned that (1) Department officials have sometimes failed to adequately
exercise their oversight role of ASCs; (2) NOAA has not ensured sufficient resources to support
ASC operational responsibilities; and (3) the outdated billing methodology fosters client
dissatisfaction. (See page 22.)

ASCs Receive High Marks from Their Clients

Despite declining resources, periods of weak departmental and NOAA management direction and
support, and other problems, we were impressed by the commitment to client service displayed by
ASC officials and employees. Even more important, the clients who receive ASC services
overwhelmingly gave the ASC staff high marks for their service orientation, resourcefulness, and
dedication. (See page 25.)

Human Resources Divisions: Some Functions Should Be
Consolidated, Automated, or Improved

To achieve greater efficiencies and economies of scale, certain Human Resources (HR) functions,
such as personnel and payroll processing, should be performed centrally at one location, rather
than at all four ASCs and at NOAA headquarters. These routine processing functions should be
consolidated at one location because they do not require close coordination with the client.
Consolidation would also improve the assignment of workload and potentially reduce the number
of management layers. As additional and improved automation changes are phased into the HR
community, other non-processing tasks should be consolidated, such as non-specialized staffing
and recruiting, employee benefits, time and attendance, and training. To their credit, NOAA and
Department officials have plans to consolidate some HR functions and automate other processes.
(See page 26.)

Procurement Divisions: Changes and Consolidation
Offer Opportunities to Improve Operations

The ASC procurement divisions are responsible for acquiring personal property and nonpersonal
services using small purchase procedures or, when the requisition exceeds $25,000, through the
formal contracting process. The divisions also approve Commerce purchase card applications, set

                                                ii
Department of Commerce                                                         Final Report IPE-8569
Office of Inspector General                                                              August 1997

card limits, and inspect purchase card transactions for misuse. Most of the ASCs’ procurement
functions benefit from the procurement staff’s ability to interact closely with their clients. These
services are generally performed well and, under current circumstances, should remain at the
ASCs. In our review of the ASC procurement operations, we have also concluded that (1) staff
reductions have seriously undermined the ASCs’ ability to fulfill some of their key oversight
responsibilities and (2) the ASCs’ oversight of purchase card responsibility should be consolidated
at the Commerce Bankcard Center in Kansas City. (See page 31.)

Finance Divisions: Much of Their Workload Should Be Outsourced

Administrative payments, the bulk of the workload for the ASC finance divisions, are not being
handled efficiently and effectively. The ASC process in making administrative payments for
NOAA and the Department is outdated, burdensome, and costly.

NOAA’s administrative payments fall under one of two systems: the Departmental Payment
System or the NOAA Payment System. The ASC finance divisions are responsible for making
payments and communicating financial information to the Finance Services Division at NOAA
headquarters, which oversees the two payment systems. Unfortunately, both systems are woefully
outdated. Our recommended solution is to outsource as much of the process as possible, as soon
as possible. (See page 36.)

The finance divisions are also responsible for the numerous field office imprest funds that are used
to make small purchases of goods and services and to provide advances and reimbursement for
employees’ travel expenses. Most of these imprest funds should be eliminated because of
(1) the availability of bankcards and the American Express travel card, (2) the extensive staff time
it takes to adequately monitor funds, and (3) the inherent vulnerabilities in operating such funds.
(See page 42.)

Systems Divisions: Major Improvements Possible

The primary task of the systems divisions is to provide support for the ASCs’ local area network,
telecommunications, software programming, and personal computer repair needs. The divisions’
personnel appeared committed to maintaining the array of information technology supporting the
other four operating divisions. However, major changes should be made in the divisions to
improve operations. For example, we believe that the ASCs should (1) consolidate, at one ASC
location, a core group of its systems professionals, whose sole objective would be to develop
software applications for the benefit of all ASCs, and (2) improve other division responsibilities
through organizational realignments. (See page 44.)




                                                 iii
Department of Commerce                                                         Final Report IPE-8569
Office of Inspector General                                                              August 1997

Facilities and Logistics Divisions: Varied Functions Require Varied Approaches

The ASCs’ Facilities and Logistics Divisions (FLDs) handle an array of important administrative
functions, including those relating to facilities management, such as real property, engineering,
security, safety, and environmental compliance. Other FLD responsibilities include personal
property, travel and transportation, printing and publications, and shipping and receiving. We
concluded that some of these functions and responsibilities were handled well, others should be
improved, and still others should be handled elsewhere. More specifically, we found that:

  C The engineering function at the Central Administrative Support Center should be downsized.
    (See page 46.)

  C The management of personal property should be improved by assigning greater
    accountability to individuals through the creation of an off-line inventory system. (See page
    48.)

  C The safety function should remain at the individual ASCs but with some important changes.
    (See page 49.)

  C Greater cooperation and coordination is needed between the ASCs and the Department’s
    Office of Security in handling security functions. (See page 50.)

  C Certain MASC shipping and receiving responsibilities should be outsourced. (See page 53.)

Major Changes Needed in Handling MASC Site-Specific Functions

The Mountain Administrative Support Center has two site-specific functions which need
changing: (1) guard and custodial services, and (2) a clerical pool. In reviewing these functions,
we concluded that:

  C Guard and custodial services should be outsourced. (See page 54.)

  C The clerical pool should be eliminated. (See page 55.)




                                                 iv
Department of Commerce                                                        Final Report IPE-8569
Office of Inspector General                                                             August 1997

ASC Deputy Director Positions Should Be Eliminated

Each ASC directorate, at the time of our review, had positions for a director, deputy director,
budget officer, and secretary. Based on the span of control and because each division chief has a
clear understanding of what needs to be done, we see little need for a deputy director, except to
serve in the director’s absence. The Eastern Administrative Support Center, for example, has
been operating without a deputy director since July 1990. ASC staff members with whom we
discussed this proposal agreed with us, as did one of the deputy directors. NOAA senior
management subsequently decided to eliminate this position. (See page 56.)

Franchising Initiatives Should Not Be Expanded

As an outgrowth of the National Performance Review, the Congress passed the Government
Management Reform Act of 1994, authorizing the establishment of six Franchise Fund Pilots
within federal agencies to provide financial support to agencies that provide common
administrative services in an entrepreneurial manner. The purpose of these funds is to
promote government-wide competition among common administrative service providers, leading
in theory to a more competitive environment, resulting in lower cost, higher quality, and more
timely services. Selected to have one of the six franchise funds, Commerce has subsequently
proposed to franchise both the ASCs and its computer center in Springfield, Virginia.

At the time of our review, two ASCs were offering their procurement services on a franchise basis
to other agencies. Discussions were also underway to significantly expand franchising activities at
these two centers and the other ASCs. However given the shortage of staff at the ASCs, the
major changes needed to improve ASC operations, the possibility of overextending departmental
resources to support other non-Commerce bureaus, and the uncertainty of staffing and systems
support, we believe that further franchising activities and initiatives at the ASCs should be
curtailed until NOAA and the Department: (1) adequately address the issues and concerns
discussed in this report, and (2) clearly demonstrate, through appropriate cost-benefit analyses,
the advantages (versus disadvantages) of allowing the ASCs to pursue franchising activities at
this time. (See page 56.)

Recommendations

Major changes are needed at the ASCs to ensure efficient, effective administrative support for
Commerce field units. While we believe that all four ASC locations should remain open for now,
Department and NOAA management should begin reviewing all administrative functions
throughout the Department with a view toward maximizing consolidation and outsourcing and
reducing staffing.



                                                v
Department of Commerce                                                         Final Report IPE-8569
Office of Inspector General                                                              August 1997

Beginning on page 62, we make a series of recommendations to the Deputy Under Secretary of
NOAA and the Department’s Acting Chief Financial Officer and Assistant Secretary for
Administration aimed at improving the effective and efficient delivery of administrative support to
Commerce field operations. By implementing our recommendations, we believe NOAA and the
Department will benefit from significant staff and resource savings, greater efficiencies, and
improved effectiveness in ASC and administrative support operations. A table following the
executive summary highlights how we believe the ASCs’ basic functions should be handled.

                                           ---------------

In the Department’s May 5 and June 26, and NOAA’s May 28 written responses to our draft
report, two Commerce initiatives are cited as the primary solution to many of the long-standing
problems affecting the delivery of administrative support services: (1) the implementation of the
Commerce Administrative Management System (CAMS), and (2) the expansion of the ASC
franchise program. Although the Department and NOAA agreed with many of our
recommendations, there were key recommendations with which they disagreed.

NOAA strongly disagreed with one of our most significant recommendations—to proceed
promptly to outsource certain finance functions. NOAA claimed that “...CAMS should ultimately
revolutionize the bureaus’ and the Department’s administrative payments processes.”
Furthermore, NOAA stated that the expense and time required to conduct a proper evaluation of
outsourcing alternatives would seriously jeopardize the success of the CAMS project. We
subsequently held discussions with NOAA and departmental officials and staff to determine what
changes had occurred in the implementation schedule of CAMS and how the new timetable may
affect the roll out of CAMS and the deployment/operation of the finance module.

Although we still remain skeptical of the likely implementation schedule and the perceived
benefits/capabilities of CAMS to more efficiently process administrative payments, we have
withdrawn our recommendation for NOAA to outsource the administrative payments at this time.
We believe that to advocate any change to NOAA’s handling of administrative payments now
may merely provide another excuse for the CAMS project to fall further behind schedule. By
giving them the benefit of the doubt concerning CAMS, we intend for NOAA and departmental
officials to have the maximum latitude and opportunity to fulfill their stated commitments to
implementing CAMS on what appears to us to be an overly “optimistic” schedule. Clearly, we
believe the onus is now on these officials to produce the tangible results they have led many to
expect, and we intend to closely monitor this situation. (See page 41.)

In response to one other major recommendation—to curtail further expansion of the franchise
initiatives—NOAA and the Department both disagreed. In fact, NOAA wishes to expand its ASC
franchise to include all administrative services. We continue to believe that the expansion of
franchising is premature. NOAA and the Department should not expand the use of their outdated

                                                 vi
Department of Commerce                                                        Final Report IPE-8569
Office of Inspector General                                                             August 1997

computer systems and hire additional personnel to support non-Commerce bureaus until they can
conclusively demonstrate in-house efficiency and overall cost effectiveness. (See page 56.) We
have other concerns regarding the ASCs’ ability to provide proper procurement oversight to the
numerous customers they would seek to serve and the lack of a competitive market analysis of
other service providers.

Based on additional information provided by NOAA, we have deleted our draft report
observations and recommendations related to: (1) printing and publications functions, (2) travel
and transportation responsibilities, and (3) MASC’s information services division.

The Department’s and NOAA’s responses are included in their entirety as attachments to the final
report. Where appropriate, we have provided additional information and comments in the body of
the report to address their responses.




                                                vii
    Department of Commerce                                                           Final Report IPE-8569
    Office of Inspector General                                                                August 1997

                                   Table 1. Summary of ASC Recommendations
Current ASC Functions              Recommended Assignment
by Division                         ASC    Merge   Outsource             Additional Comments
Director’s Office
   Director, Budget Analyst, Sec    U
   Deputy Director                                             Eliminate positions
Human Resources Division
   Employee Relations               U
   Labor Relations                  U
   Performance Management           U
   Awards Counseling                U
   Spec Staffing & Recruiting       U
   Pay & Leave Administration       U
   Position Classification          U
   Employee Benefits                        U                  Consolidate at future Customer Service Center
   Staffing & Recruiting                    U                  Consolidate at future Customer Service Center
   Time & Attendance                        U                  Consolidate at future Customer Service Center
   Training                                 U                  Consolidate at future Customer Service Center
   Personnel/Payroll Processing             U                  Consolidate at future Customer Service Center
Finance Division
   Administrative Payments          U                          Withdraw recommendation to outsource,
                                                               pending promised benefits from CAMS
   Imprest Fund Oversight                   U                  Consolidate at NOAA HQ in Budget Office
Procurement Division
   Small Purchases                  U                          Determine staff measures/CAMS automation
   Contracts                        U                          Determine staff measures/CAMS automation
   Purchase Card Approval           U
   Purchase Card Oversight                  U                  Consolidate at Commerce Bankcard Center
Facilities & Logistics Division
   Engineering                      U                          Continue to seek flexibility in staffing decisions
                                                               concerning engineering support
   Security                         U                          Report to ASC director with close DOC
                                                               oversight
   Safety                           U                          Emphasize better coord., factor safety into bldgs.
   Personal Property                U                          Establish off-line systems, stress accountability
   Printing & Publications          U
   Transportation Vehicle Mgmt      U                          Evaluate contracting out of MASC shipping and
                                                               receiving function through A-76 study.
   MASC Information Services        U
   Division
   MASC Guards & Custodians                           U        Justify why decision to transfer function to NIST
                                                               is superior to outsourcing.
   MASC Clerical Pool                                          Eliminate positions
Systems Division
   LAN, PC help desk and            U                          Seek opportunities to streamline or reallocate
   software programmers                                        resources
Department of Commerce                                                          Final Report IPE-8569
Office of Inspector General                                                               August 1997

                                        INTRODUCTION

Pursuant to the authority of the Inspector General Act of 1978, as amended, the Office of
Inspector General evaluated the efficiency and effectiveness of the Department of Commerce’s
regional Administrative Support Centers (ASCs).

Program evaluations are comprehensive reviews that the OIG undertakes to give agency
managers current information about operations, including existing and foreseeable problems.
Evaluations are also conducted to detect fraud, waste, and abuse and to encourage effective,
efficient, and economical operations. By highlighting problems, the OIG strives to help managers
address them now and avoid their recurrence in the future.

                                    PURPOSE AND SCOPE

The purpose of this inspection was to evaluate the efficiency and effectiveness of the ASCs in
providing administrative services to the Department’s field operations. We did not examine the
effectiveness or efficiency of the Department’s or NOAA’s headquarters administrative units. We
sought to determine whether the current ASC structure effectively meets the needs of its clients;
whether the proposed administrative support options are efficient ways to use Department-wide
resources; and how expanded electronic processing will affect the role of the ASCs. We
examined these issues especially in relation to (1) departmental direction and leadership of the
ASCs; (2) NOAA’s management of the ASCs; and (3) current ASC service delivery mechanisms.
We also explored possible lower-cost alternatives and options—including outsourcing and
franchising—for providing administrative support to Commerce field operations in the future.

We reviewed prior and current studies of administrative operations (see Appendix B), evaluated
other U.S. Government agencies’ mechanisms for delivering administrative services, and
examined pertinent documents and budget plans particularly as they pertain to the ASCs. We
interviewed appropriate officials and representatives (both current and former) from the
Department, NOAA, and the ASCs, as well as ASC customers. Additionally, we had numerous
discussions with representatives from other federal agencies to assess their administrative service
delivery.

We conducted our primary inspection work at the four ASCs in Norfolk, Virginia, Kansas City,
Missouri, Boulder, Colorado, and Seattle, Washington. We interviewed numerous personnel
responsible for managing ASC operations: the ASC directors, deputy directors, chiefs of the
functional divisions, and ASC employees. We did not review the administrative support groups of
NOAA headquarters, the Department, or other Commerce bureau headquarters. However, we
did meet with NOAA’s Chief Financial Officer (CFO) and NOAA’s functional division chiefs, as
well as with the Department’s Acting CFO and Assistant Secretary for Administration, functional


                                                 1
Department of Commerce                                                       Final Report IPE-8569
Office of Inspector General                                                            August 1997

division directors, and an official at the CAMS Implementation Center and numerous other
Commerce representatives involved in administrative matters.

This inspection was conducted from February to December 1996 in accordance with the Quality
Standards for Inspections, issued by the President’s Council on Integrity and Efficiency. Given
the high level of controversy regarding the ASCs that existed within NOAA and the evolving, if
not volatile, nature of ASCs at the time of our review, we frequently discussed our observations,
suggestions, and recommendations with key officials, including the Department’s Acting CFO and
Assistant Secretary for Administration and the CFO for NOAA.




                                               2
Department of Commerce                                                         Final Report IPE-8569
Office of Inspector General                                                              August 1997

                                        BACKGROUND

Before 1982, each Department of Commerce bureau provided administrative support to its field
units through its own headquarters organization. Some of the larger bureaus, such as NOAA,
delegated authority to individual line offices to provide administrative guidance and support to
their field structures. The autonomous nature of these organizations often inhibited consistency
and the exchange of ideas and “best practices.” Furthermore, service quality was uneven, costs
were unnecessarily high, and the information the Department needed for executive direction and
oversight was difficult to obtain and often inconsistent.

In the early 1980s, there was a government-wide initiative to reduce the number of administrative
positions. In 1983, to meet this reduction and improve efficiency and consistency, regional
Administrative Support Centers were established and strategically placed to provide
administrative support to Commerce units in the field. Commerce chose NOAA as its host for the
ASCs because it is the largest Commerce bureau and has the most field offices. The primary
reasons for the establishment of ASCs were to (1) introduce more cost-effective administrative
systems; (2) improve administrative services to Commerce employees in the field; (3) reduce
administrative overlap and duplication; (4) ensure more consistent policy, information, and
management controls; and (5) take advantage of opportunities for greater delegation and reduced
paperwork.

NOAA serves as the “host” agency for the ASCs, with delegations of authority and oversight
from the Department. In this role, NOAA provides integrated budget support and ensures that
services are provided in an equitable manner. NOAA bills each ASC client for the administrative
services provided, and the amount billed is determined by using established indices. In addition to
ensuring compliance with departmental policy, NOAA’s budget office oversees the budget
process and ensures that any changes are made in consultation with the Department. At the time
of our review, the ASCs employed more than 400 people and serviced about 14,000 clients in
more than 700 Commerce field offices. ASC customers are located in all 50 states, the Pacific
Trust Territories, Guam, American Samoa, Puerto Rico, the U.S. Virgin Islands, and Antarctica.

The ASCs are organized with five core divisions: finance, human resources, procurement,
facilities and logistics, and systems. A fifth ASC—the National Capital Administrative Support
Center in Rockville, Maryland—was established in 1984 with the intention of providing
consolidated administrative support to Commerce headquarters bureaus, but it was later dissolved
for reasons that cognizant personnel describe as “political.” Before its demise, this ASC serviced
approximately 4,500 NOAA employees in the Washington area with the goal of also servicing the
remaining 15,000 Commerce employees in the area. However, this ASC was never fully
implemented, and administrative consolidations at the individual agencies’ headquarters in
Washington never materialized. Thus far, the full viability and complete applicability of the ASC
concept have never been tested Department-wide.

                                                 3
Department of Commerce                                                         Final Report IPE-8569
Office of Inspector General                                                              August 1997

The ASCs provide administrative support through interagency agreements encompassing
administrative payments, personnel and payroll services, real property and space management,
engineering, personal property, procurement, publications and printing services, health and safety,
environmental compliance, security, and vehicle fleet management. Although each ASC provides
common services to clients, site-specific services vary. Site-specific services (as shown in the
table below) are developed and supported by the local ASCs to meet the unique needs of their
customers.

                Table 2. Administrative Support Centers’ Site-Specific Services

       EASC                   CASC                         MASC                        WASC
 No site-specific      - Special              -   Health Unit                   General
 services                Engineering          -   Mail/Shuttle                  management of the
                         Program Office       -   Library/Publications          Western Regional
                       - National Logistics   -   Guards/Custodians             Center, e.g.,
                         Supply Center        -   Facility Services             grounds keeping,
                       - Commerce             -   Hazardous Materials           warehousing, guard
                         Bankcard Center      -   Personal Property Storage     service, facility
                                              -   Storeroom/Equipment Rental    management
                                              -   Clerical Pool
                                              -   CASU

During the first few years of their existence, the ASCs were periodically evaluated by NOAA for
conformance to goals, performance standards, opportunities for increased efficiencies, and overall
effectiveness. A number of departmental and special reviews were also conducted to evaluate
ASC management and operations. The reviews concentrated on the basic core operations and
determined each ASC’s effectiveness in providing administrative services to its client bureaus.
However, the last official departmental review of any substance was apparently performed in
1986; only limited client surveys are now used to measure the quality of ASC services. The latest
survey, completed in 1995, revealed positive results and portrayed ASC customer satisfaction at
an all-time high.

The ASCs also had strong departmental support during the early years and were provided
adequate resources to carry out their mission. Since then, however, both departmental leadership
and the level of resources have waned. In fact, NOAA has undergone budget cuts that have
affected the level of ASC services. To illustrate, ASC budgetary resources have decreased 12
percent from FY 1992 to FY 1996. Furthermore, contrary to its responsibilities under the
interagency agreement with the Department as hosting organization, NOAA has unilaterally
reduced the level of ASC services in part because of its own lack of funding for administrative
operations. Due to FY 1996 budget cuts, in December 1995, NOAA’s Deputy Under Secretary

                                                   4
Department of Commerce                                                     Final Report IPE-8569
Office of Inspector General                                                          August 1997

commissioned a task force to examine ways the ASCs could provide the same level of services
using fewer resources. The team made a number of preliminary recommendations, including
closing two ASCs and centralizing certain administrative functions.




                                              5
Department of Commerce                                                         Final Report IPE-8569
Office of Inspector General                                                              August 1997

                              OBSERVATIONS AND CONCLUSIONS

From their inception, the ASCs have been faced with numerous, complex issues—issues that
required management attention. To their credit, the ASCs have generated many successes and
improved administrative support for most of the Department’s field offices. Unfortunately, the
full potential of the ASC concept has never been realized for the entire Department. Increasingly,
the ASCs have suffered from management neglect from both the Department and NOAA. As
Commerce and other federal agencies face more budget constraints, the pressure to “reinvent”
themselves through downsizing, streamlining, outsourcing, and privatizing has increased, and will
continue to do so. Other external trends, in information technology, business process
reengineering, and increased outsourcing opportunities, offer potential productivity-enhancing
solutions. We believe such solutions, and a realignment of ASC services and delivery
mechanisms, offer promise for improved administrative support for the Department.

In Section I of this report, we discuss the Department’s role in the creation of ASCs, its
subsequent diminished leadership and oversight roles, some new proposals to develop a
technological “fix” for administrative support, and its role regarding agency participation in the
ASCs. Section II covers NOAA’s management of the ASCs, with highlights of what has and has
not worked well, the impact that NOAA’s resource problems have had on the ASCs, the desire of
some ASC customers to keep their own administrative staff, and problems with NOAA
headquarters management of the ASCs. Finally, Section III delves into the operations of ASCs,
examines each functional division, and discusses a number of other overall issues, alternatives, and
concerns regarding the future of the ASCs.

I.    LAX DEPARTMENTAL LEADERSHIP HAS COMPLICATED ASC OPERATIONS

In the early 1980s, there was a government-wide initiative to reduce the number of administrative
positions. Moreover, Department officials, sought—on a Commerce-wide basis—to develop a
more systematic method to provide administrative services to Commerce agencies which
independently pursued their diverse programmatic responsibilities and operational/administrative
tasks. The Department also wanted to (1) improve administrative services to Commerce
employees in the field; (2) reduce administrative overlap and duplication; (3) ensure more
consistent policy, information, and management controls; and (4) take advantage of opportunities
for greater delegation and reduced paperwork.

When the ASCs were established in 1983, they were strongly supported by senior Commerce
officials, and particularly by the Office of the Assistant Secretary for Administration. During our
interviews with high-ranking officials (both current and former) of Commerce and other Cabinet
agencies, such top-level support and direction was viewed as “key to the success of an ASC-type
service delivery structure.” We agree. Ideally, such a “central” Department-wide function would
have been placed under the Office of the Secretary to ensure adequate support and direction.

                                                 6
Department of Commerce                                                                   Final Report IPE-8569
Office of Inspector General                                                                        August 1997

The ASCs, however, were placed under the direct management of NOAA, the Department’s
largest bureau and also the one with the most domestic field sites and employees. Cognizant
former and current Commerce officials acknowledge that the ASCs ideally belonged under the
Office of the Secretary. But, since such a move would have added more than 500 administrative
employees to that organization, the idea was discarded principally to avoid the perception that the
Office of the Secretary had disproportionate numbers of administrative positions. The concern
had been that such an organizational placement would invite political attacks and become a prime
target for budget cuts. When we spoke with senior officials of other Cabinet agencies about the
administrative services at their agencies, they too acknowledged that aggregating a large number
of administrative staff in a headquarters office would create the same negative perception. In
recent years, this has become an even greater problem as the Congress and the Office of
Management and Budget have both targeted across-the-board budget cuts for “administrative”
staffs.

Because of the above concerns, there appears to be wide acceptance that the placement of the
ASCs under NOAA still makes sense because NOAA represents more than 80 percent of the
Department’s/ASCs’ customers in the field. Moreover, it was clear from our observations and
comprehensive discussions with Commerce officials and staff that Department managers do not
want this responsibility nor do most Commerce field clients want them to have it. For now, the
ASCs should continue to report to NOAA.

A.    Oversight and Accountability Are Not Given Proper Attention

Just as we found widespread agreement that NOAA became the ASC host by default, it was also
the consensus of most officials that the Department had often failed to provide the direction,
oversight, and support needed to make “its” regional ASC concept a continuing success. The
ASC concept was a Commerce initiative, and the plans for it called for important and crucial
functions to be performed by the Department. While there were reportedly frequent, vigorous
debates as to what these functions should or could be, there was general recognition that the
Department’s primary responsibilities—through the Assistant Secretary for Administration –
would revolve around policy direction and oversight.

This important distinction between operations (NOAA) and oversight/policy (Department) was
made in a 1983 study that concluded, “The Office of the Assistant Secretary of Administration
should break away from its current day-to-day direct involvement with the RASCs [Regional
ASCs] toward a policy and oversight role with the RASCs.”1 This study further concluded that
the Assistant Secretary of Administration should hold NOAA accountable for the success of the
regional offices.


        1
            Price Waterhouse & Co., Headquarters Impact of Administrative Regionalization, 1983.

                                                        7
Department of Commerce                                                        Final Report IPE-8569
Office of Inspector General                                                             August 1997

During our review, we found that ASC policy direction has too often been weak and oversight
functions have increasingly become spotty. The intended departmental role is clearly outlined in a
number of documents and agreements that established the ASCs. It was addressed, for example,
in the original 1983 interagency agreement for ASCs and specified later in a redefined
memorandum of understanding (MOU) signed by the Department and NOAA in 1987. The
Department, among other things, was to (1) develop an integrated annual ASC evaluation plan for
departmental policy offices; (2) participate in on-site reviews of ASCs; (3) assist in the
development of client surveys; and (4) develop minimum performance standards. Specifically, the
MOU stated that “… the Office of the Secretary is responsible for setting broad departmental
policy on the use and activities of the centers and for providing support in terms of policy and
automated systems to them. The Department also has a role in oversight and evaluation of the
centers.” Additionally, the MOU affirmed that the Department would share in the evaluation of
the ASCs by conducting technical/regulatory reviews of ASC activities.

In spite of the original agreement and subsequent MOU, we believe the Department has often
failed to provide the proper oversight and direction for the ASCs in several ways, such as:

C Lax departmental monitoring of bureau administrative units: The Department has not
  prevented the growth or continuation of administrative support units outside of the ASC
  structure. The creation of “shadow” administrative staffs and the emergence of administrative
  staffs with redundant or overlapping responsibilities (as in the case of the Census Bureau)
  have weakened the Department’s ability to deliver administrative support to its headquarters
  and field units most efficiently and effectively. The creation of ASCs was not entirely
  welcomed by the field units of several agencies. Their loss of administrative resources—and
  associated sense of control and/or access to information—apparently spawned, over time, the
  emergence of “shadow” staffs within regional offices. Thus, the staffing efficiencies
  anticipated by creating ASCs may have been eventually offset to some degree by subtle re-
  hiring/re-classification of field personnel.

• Inadequate Department-wide customer input: The Department has not ensured
  Department-wide customer input. Although a customer service satisfaction survey was
  conducted in 1995, we were told that it is only the second significant survey conducted in the
  15 years since the ASCs were created. Non-NOAA bureaus and even some of NOAA’s line
  offices have little—if any—say in the level of services or funding.

• Discontinued human resource oversight: The Department stopped conducting personnel
  management evaluations in the early 1990s. Although these evaluations were used to assess
  the efficiency and effectiveness of the human resource offices, departmental officials justified
  this change so they could instead focus on implementing new initiatives, such as the National
  Performance Review and automation—and not program oversight. Reportedly, an individual


                                                8
Department of Commerce                                                                     Final Report IPE-8569
Office of Inspector General                                                                          August 1997

    was recently hired by the Department’s Office of Human Resources Management to help fill
    this oversight void.

• Inadequate procurement oversight: The Department has, by and large, abandoned much of
  its procurement review and oversight responsibilities. Before 1994, the Department
  conducted acquisition management reviews (AMR) of agency procurement offices, including
  those at the ASCs. Since then, a new “oversight” method has been put in place, the
  Performance Measurement Assessment Tool (PMAT). Unfortunately, PMAT does not, in
  our opinion, adequately fulfill the objectives of the old AMRs. More specifically, PMAT will
  not provide an independent assessment of the ASCs’ procurement management; determine
  whether regulatory, statutory, and socioeconomic requirements are being met; evaluate the
  adequacy of management controls; and assess the soundness of business judgments made by
  the contracting officer.2

• Poor administrative payment oversight: Various studies, reports, and position papers,
  issued from 1981 to the present, have made recommendations to either outsource the
  administrative payment function or invest in an updated system for processing payments.3 The
  recommendations have largely been ignored, leaving the Department with its outdated,
  burdensome, and costly payment process.

• Lack of budgetary oversight: The Department has not actively overseen or participated in
  the ASC budgetary and billing process (see page 22). The measures used to set the ASCs’
  overall budget and to bill the ASCs’ clients (including NOAA and other Commerce agencies),
  were not routinely overseen or thoroughly reviewed by the Department. As a result, NOAA
  has, over the years, assumed almost unilateral control of ASC operations and funding (see
  page 23).

We view the lack of departmental oversight as troubling. Without adequate oversight, top-level
Commerce management cannot be assured that overall administrative services within the
Department are being managed effectively and efficiently and that taxpayer dollars are being spent
wisely. And, because of the Department’s decreasing involvement in the ASCs, NOAA has, over
the years, increasingly assumed control of ASC operations and funding. Key bureau headquarters
administrative officials, whose field staff are users of the ASCs, have expressed the view that in
some areas the level of service has been inadequate and the costs too high.




        2
          Office of Inspector General, Office of Audits, Economic Development Division, Office of Acquisition
Policy and Programs Needs to Reevaluate Its Mission and Organization, EDD-8279-6-0001, December 17, 1996.
        3
            See Appendix D for a synopsis of these prior reports on DOC administrative support.

                                                         9
Department of Commerce                                                                Final Report IPE-8569
Office of Inspector General                                                                     August 1997

The Department has not played the key role that was initially envisioned. During the first few
years of their existence, the ASCs had the support of top-level Commerce officials and were
provided the resources necessary to carry out their operations. However, the ASCs began to
experience increasing problems and declining interest from the Department due to (1) the normal
changes in administrations, which triggered the exodus of top policy/decision makers who had
been strong supporters of the ASCs, (2) the emergence of other departmental priorities, (3) the
lack of cooperation by bureau managers, and (4) heightening funding problems. And, as cited in a
1993 draft report by a NOAA official, “a clear distinction between operational and oversight roles
were never made and enforced from the beginning of the ASCs.”4

                                               ---------------

In its response to our draft report, NOAA strongly disagreed that it has almost unilateral control
over the ASCs’ budgets. NOAA cited external factors, such as overall government downsizing
and the FY 1996 NOAA appropriations level, as the cause for the ASCs’ funding decline.

We acknowledge that NOAA, as well as all other executive branch agencies, face similar funding
pressure. But, as we discuss in more detail on page 23, what we believe exacerbated the problem
for the ASCs is that their budget is aggregated with NOAA’s headquarters administrative group,
thus disguising some of the administrative support needs of Commerce’s field operations with
those of NOAA headquarters. Therefore, even if the other Commerce bureaus had the ability,
and desire, to pay more for administrative support, they were constrained from doing so by
NOAA’s staff and budget ceilings.

B.    CAMS Is Crucial to Commerce’s Administrative Services

Senior Commerce managers need to work aggressively to implement the long-promised, sorely
needed Commerce Administrative Management System (CAMS), a Department initiative to
establish a structured system designed to integrate financial and administrative procedures and
processes. Commerce managers have long recognized that a fully implemented CAMS will
dramatically change how the Department transacts, accounts for, and oversees many of its
administrative services, including those provided by the ASCs. The current estimate is that the
first part of CAMS—the Core Financial System—will be operational in FY 1998, with full CAMS
implementation expected in FY 2002.

CAMS is being developed in response to Commerce-wide financial system deficiencies. The
CAMS concept includes:


        4
        An Exploratory Assessment of the Regional Administrative Support Centers in the Department of
Commerce (Phase I), Klaus Liedtke, April 19, 1993, p. 17.

                                                     10
Department of Commerce                                                               Final Report IPE-8569
Office of Inspector General                                                                    August 1997

  C Paperless processing using electronic forms, supported by electronic approval.

  C On-line reservation of funds, as a by-product of creating electronic forms which request
    goods and services.

  C On-line validation, availability, and commitment of funds as an integral part of the electronic
    approval process.

  C Simultaneous capture and use of direct and indirect labor hours for project management,
    financial accounting, and time-and-attendance purposes.

  C On-line authorized query and retrieval of official financial and accounting data (e.g.,
    commitments, obligations).5

The heart of CAMS is the Core Financial System (CFS), which includes many features that
support ASC-type functions and responsibilities, including the general ledger, accounts payable,
accounts receivable, cost accounting, financial reporting, and budget execution activities. The
other system modules (which include small purchases, contracting, travel, Bankcard, time
reporting/labor cost estimating, grants, personal property, real property, and budget formulation)
will integrate or interface with the CFS and come on-line after the initial CFS implementation.
The CAMS software is designed to run on many different types of hardware systems.

The Department’s Office of Financial Management is overseeing the implementation of CAMS;
however, Census, NIST, NOAA, and PTO are responsible for their individual bureau
implementation strategies. NIST will be responsible for servicing the remaining bureaus and the
Office of the Secretary. NOAA’s recent assignment of a full-time CAMS project director is a
positive step toward coordinating these activities relating to the ASCs. However, if CAMS is to
help solve Commerce’s decrepit administrative systems and financial problems, continued top-
level departmental support is necessary to ensure successful implementation.

The current strategy, to first implement the CFS and then the remaining modules over a period of
several years, suggests that resources will continue to be devoted to the operational aspects of
CAMS. We believe that in order to avoid costs associated with future reductions-in-force and to
take advantage of downsizing through attrition, steps must be taken now to assess the operational
impact on administrative staffing and resource needs in anticipation of individual CAMS modules
becoming operational. Another staffing issue that must be considered as CAMS is phased in will
be the need for NOAA to limit any new hiring for administrative positions to only term or limited


        5
         From the Department’s Chief Financial Officer’s Financial Management Status Report and Five Year
Plan 1994-1998, p. 21.

                                                    11
Department of Commerce                                                        Final Report IPE-8569
Office of Inspector General                                                             August 1997

appointments. As CAMS is implemented, fewer staff members will be necessary for
administrative support. By hiring other than full-time permanent employees for critical vacancies,
NOAA will be better prepared to shrink its overall administrative staff more easily than through a
costly reduction-in-force.

Conceptually, the successful implementation of CAMS will have a significant impact on the ASCs
and Commerce’s field offices. If properly and fully implemented, CAMS should eliminate paper
processing, redundant keying in of data, and informal record systems. The long-term effect will
be a reduction of staff. Until CAMS is fully implemented, all ASC administrative positions should
be filled on a temporary assignment basis to avoid future reduction-in-force costs.

                                             ----------

In its response to our draft report, the Department agreed with our recommendation that the
development and implementation of CAMS be given a high priority. The Department cited its
establishment of a CAMS Implementation Center, the organization of a CAMS Steering
Committee, and the inclusion of new monies in the CAMS budget as evidence of its commitment
to the project. In addition, NOAA, in its response, stated that the implementation of CAMS will
result in adjustments to finance and administrative staffing.

While the Department states that CAMS is a high priority, many of the initiatives cited in its
response are not new. For example, both the CAMS Steering Committee and the Implementation
Center have been in place for several years. However, in recent meetings with both departmental
and NOAA CAMS personnel, we have been told that significant progress has been made and a
limited portion of CAMS is being pilot tested within NOAA’s Office of Finance and
Administration in Washington, D.C. The pilot will be extended to the ASCs during the months of
May through August 1998.

During the pilot, requisitioners will continue to submit paper forms with supporting
documentation, and data entry will be performed by Procurement and Finance offices. The initial
deployment will also include limited Accounts Payable and Procurement functionality with
supporting Budget Execution and General Ledger set-up. Ten accounts payable document types,
such as SF-44 purchase order vouchers, local travel reimbursement vouchers, and gasoline credit
cards, are going to be in the pilot. Procurement documents to be tested include CD-435
Procurement Requests and CD-404 Purchase Orders.

Other OIG offices are monitoring CAMS progress, therefore, we did not evaluate the progress as
stated.




                                                12
Department of Commerce                                                                 Final Report IPE-8569
Office of Inspector General                                                                      August 1997

C.      Conflicting Initiatives Complicate Administrative Operations

The National Performance Review, a government-wide effort headed by the Vice President to
reinvent the federal government, has recommended a number of sweeping reforms aimed at
improving government management.6 We believe, however, that strong departmental leadership
is necessary to overcome the obstacles caused by the number and mix of NPR initiatives, some of
which are in direct conflict with each other or add confusion to the various reform efforts (see
figure below). For example, the Department’s implementation of the NPR streamlining and
downsizing efforts in the procurement area ignore increases in the oversight workload. The
streamlined procurement process eliminates paperwork and rigid procedures, and delegates
procurement authority to line managers. Presumably, the line managers are held accountable to,
and their performance measured by, the procurement office. However, NPR has targeted
procurement specialists in the downsizing initiative. Unfortunately in the bureaus’ field offices
and at the ASCs, there is not enough staff to properly oversee and monitor those
with delegated authority. And, as mentioned earlier, the Department no longer conducts
acquisition management reviews.

Another change took place during FY 1995, when the former CFO and Assistant Secretary for
Administration directed the Office of Administration’s office directors to assume a policy-oriented
focus and transfer most of the day-to-day operational responsibilities to the larger Commerce
bureaus. Although the final impact of this change has yet to be determined, one result has been a
confused and inconsistent separation of services. For example, NIST has taken over ESA’s
procurement activities, while the Census Bureau is responsible for ESA’s personnel functions, and
ITA has primary responsibility for ESA training activities. While these changes may make sense
when viewed independently, collectively some have caused a great deal of confusion in both the
field and at headquarters.




          6
              National Performance Review, Common Sense Government: Works Better and Costs Less, September
1995.

                                                       13
Department of Commerce                                                                    Final Report IPE-8569
Office of Inspector General                                                                         August 1997




                     Government Reform Initiatives with Potentially Conflicting Results


                                                    CAMS       Franchise
                  Create "Centers of Excellence"                            Decentralize Personnel
                                                                            Policy

                     Vertically Integrate                                       Streamline
                     Management                                                 Procurement


                  Increase Accountability                                        Empower Managers


                                                                           Eliminate Layers of
                        Measure Performance                                Management

                                                   Outsource    Send Operations to the Bureaus




Various other mechanisms for delivering and receiving administrative services are also being
proposed and implemented. These include decentralizing and delegating functions to the field,
centralizing functions by creating “Centers of Excellence,” selling services to others (franchising),
or buying services from others (outsourcing). We have serious questions, however, about how
some of these initiatives are being implemented. For example, we do not believe the ASCs should
consider new franchising activities until the current problems in ASC administrative support
operations have been corrected and cost-benefit analyses have been completed and show that it is
clearly to the Department’s advantage to extend its services to non-Commerce agencies (see page
59). Ironically, as the ASCs prepare to franchise their -administrative services to outside
agencies, the Census Bureau is pulling back its administrative services, claiming the ASCs are too
expensive. ITA is threatening to do the same, citing lower cost and greater management control
as the benefits.

D.    Client Exodus Highlights Department’s Diminished Role

The absence of departmental leadership has allowed the original objective for creating regional
ASCs—to support all Commerce field offices—to erode. Top administrative officials for ITA and
Census claim that the costs charged by NOAA are too high and that better services could be
provided in-house for less money.



                                                       14
Department of Commerce                                                           Final Report IPE-8569
Office of Inspector General                                                                August 1997

When the ASCs were initially established, administrative FTEs were collected from all
departmental field offices and consolidated into four locations. NOAA became the “host” bureau
because, in 1982, as is the case today, most field personnel were NOAA employees. Table 3
shows the concentration of client FTEs at each ASC, identified by major client (agency), and the
percentage that agency represents of the total client FTEs served by each ASC.

The Mountain Administrative Support Center, collocated with several NOAA laboratories, NIST
laboratories, and NTIA’s Institute for Telecommunications Sciences, has the highest non-NOAA
 client base. The remaining ASCs report that the non-NOAA client workload is relatively small.
The non-NOAA employees we spoke with who are served by the ASCs report they are pleased
with the services received. Most report using the ASCs primarily for human resources and
procurement, although there are instances where computer, telecommunications, and engineering
assistance were required. The table below illustrates the relative number of clients, and their
agency affiliation, served by each ASC in their region.

During our evaluation, we learned of the Census Bureau’s decision in February 1996 to sever its
ties with the ASCs by the end of fiscal year 1996. In fact, we were told that, for all intents and
purposes, Census had stopped using the ASCs for some services more than a year before it
formally pulled out of the ASCs. Cognizant employees informed us that Census wanted to have
total control over its field offices and therefore chose to perform certain administrative functions,
such as real property and procurement, from its Suitland, Maryland, headquarters. As of October
1, 1996, Census officially stopped using the ASCs and is now providing administrative support to
its field offices from its headquarters. This change was made, according to a senior Census
official, because (1) Census was not using all of the ASC services, (2) Census had eliminated the
ASC paper processes and moved to an electronic system, and (3) the costs for the ASC services
that could be done in-house would be much lower.

The Department allowed Census to sever its ties with the ASCs; in fact, we discovered that
Census’ headquarters office in Suitland had never fully relinquished some of the administrative
functions, such as real property, that were “core” services included in their ASC bill. We also
discovered that Census never included its Jeffersonville, Indiana, facility as a client of the ASCs
and, instead, established its own administrative unit at that facility. We believe that both the
Department’s lack of oversight and the Census Bureau’s wasteful use of resources and
overstaffing have resulted in an inefficient use of resources. The fact that Census has the
resources to perform services in-house, as well as pay NOAA for services not rendered, raises
questions of whether Census has more administrative funding and headquarters staff than are
necessary.




                                                 15
Department of Commerce                                                                      Final Report IPE-8569
Office of Inspector General                                                                           August 1997

                 Table 3. Regional Comparison of ASC by Client Concentration

                    EASC                   CASC                  MASC                  WASC
             No. of      % of         No. of    % of        No. of    % of       No. of      % of       Total
             ASC         Total        ASC       Total       ASC       Total      ASC         Total      ASC
             Client      ASC          Client    ASC         Client    ASC        Client      ASC        Client
             FTEs        Client       FTEs      Client      FTEs      Client     FTEs        Client     FTEs
                         FTEs                   FTEs                  FTEs                   FTEs
 ITA               79         28.42      126      45.32           0      0.00          73     26.26        278
 Census           216         12.11      233      13.06      1,221      68.44        114        6.39     1,784
 NOAA           2,154         24.31    2,128      24.01      1,817      20.50      2,763      31.18      8,862
 Other             80          9.06      106      12.00        605      68.52          92     10.42        883
 Total          2,529         21.42    2,593      21.96      3,643      30.85      3,042      25.76      11,80
                                                                                                             7

ITA has also announced its intention to support the administrative needs of its domestic field
operations from its Washington headquarters. Senior ITA administrative officials told us that the
agency wants to withdraw from the ASCs because they are too expensive. We were told that,
with the exception of adding one or two additional persons for payroll processing, ITA expects to
be able to handle the administrative functions of its field network in-house using its existing
headquarters resources. This also raises questions about whether ITA now has excess
administrative resources which would allow it to absorb a major shift in workload from the ASCs.
As detailed last year in an OIG audit report on ITA’s administrative activities, both ITA’s Office
of Administration and its operating units could benefit from a closer examination of their
administrative staffing.7 ITA officials were candid in acknowledging that ITA wanted to take
over administrative control of ITA’s domestic field offices—primarily US&FCS offices—to gain
tighter control over decision-making in the field.

Is it in the best interests of Census and ITA to leave the ASCs? This is a question that Census
and ITA have apparently “asked and answered.” Our concern is that none has asked the question:
“What is in the best interest of the Department of Commerce and the taxpayers?” The
Department should ask that question and should also have the answer.



         7
           Office of Inspector General, Office of Audits, Trade and Information Division, ITA Administrative
Activities Should Be Further Streamlined, TID-7325-6-0001, July 31, 1996.

                                                       16
Department of Commerce                                                          Final Report IPE-8569
Office of Inspector General                                                               August 1997

First, we believe the Census Bureau was guilty of gross mismanagement of its administrative
resources by paying for administrative services which it duplicated with in-house resources. We
believe Census should not have been allowed to unilaterally sever its ties (however tenuous) with
the ASCs, without a thorough cost-benefit analysis by the Department. We believe a study should
be initiated by the Department to examine the costs/benefits of Census providing its own
administrative support versus receiving such support from the ASCs. This study should be
comprehensive and include not only the administrative support needs and staffing resources of
Census regional offices and its Jeffersonville site, but also its Suitland headquarters. Second, ITA
should not be allowed to sever its ties with the ASCs before a thorough cost-benefit analysis of
such a move is completed by the Department, and only after it is shown that such a move is
advantageous to the Department as well as ITA.

We believe the Department must shoulder much of the blame for the actions taken by the Census
Bureau and for ITA’s stated intentions. The positions taken by these agencies bring into question
the Department’s commitment to carrying out the NPR objective to streamline and downsize
administrative costs government-wide.

                                            ---------------

In its response to our draft report, the Department stated that the Census Bureau did present a
study to support its claim that withdrawing from the ASCs would be more cost-effective.
Although the Department stated that some of Census’s claims were verified by departmental
experts, it did not specifically state which claims, or why all claims were not verified. We believe
it is the Department’s responsibility to conduct its own cost review, not just accept the examples
offered by Census.

In response to our draft report, NOAA stated that the Census Bureau’s decision to withdraw as a
customer of the ASCs, “While not consistent with the DOC philosophy during the establishment
of the ASCs, it would be consistent with the National Performance Review’s (NPR) concept of
introducing more competitive aspects into Government decision-making.” Although NOAA
stated that Census did not present a cost-benefit analysis to justify its decision, NOAA said “it is
equally apparent that it is not within NOAA’s purview to second-guess those bureau’s
management decisions.” NOAA suggested further that a possible role for the Department would
be to develop a template that bureaus could use to evaluate the option of ASC support versus
other alternatives.

We understand NOAA’s position, but disagree with its conclusion. We must emphasize that
decisions such as this must be considered in terms of what is in the Department’s and U.S.
taxpayers’ best interests. We reiterate our position questioning whether Census adequately
justified its decision to withdraw from the ASCs and, more importantly, whether the Department
properly analyzed the Census decision in the context of overall cost efficiency and effectiveness.

                                                  17
Department of Commerce                                                     Final Report IPE-8569
Office of Inspector General                                                          August 1997

Finally, we have contacted ITA management and learned that they still intend to address the
question of withdrawing from the ASCs, based on cost considerations, following the confirmation
of a new Under Secretary.




                                              18
Department of Commerce                                                              Final Report IPE-8569
Office of Inspector General                                                                   August 1997

II.   NOAA’S MANAGEMENT OF ASCs HAS FREQUENTLY CONTRIBUTED TO
      THEIR PROBLEMS

At the ASCs’ inception, NOAA’s stewardship was rated highly. NOAA generally provided
adequate resources, supported participation by all Commerce bureaus, fostered a strong linkage
among the ASCs, and actively sought to improve management practices. In later—especially
more recent—years, NOAA’s management of the ASCs has changed due to tighter budgets,
frequent turnovers in staff and managers, changing priorities, increasing complaints by NOAA
managers regarding ASCs, and a host of other problems that were not always addressed promptly
and thoroughly.

A.    NOAA’s Investment in ASCs Has Been Declining

The ASCs were established to provide administrative services to all Department of Commerce
field office sites. To fund the centers, administrative FTEs and budgets were taken away from the
various Commerce regional field offices and either shifted into the four ASCs, or eliminated. It is
our view that a centralized regional support structure was, and continues to be, an efficient use of
departmental resources. However, NOAA, as the host of the ASCs, has not provided adequate
“core” funding to them. The five divisions in each of the ASCs—Human Resources,

                              Figure 1. FTE History of ASCs, FY 1992-96

                                              FTE History
                                 150
                                 140
                                 130
                                 120
                                 110
                                 100
                                  90
                                  80
                                       FY92     FY93        FY94     FY95    FY96

                                         MASC          CASC        WASC     EASC




Procurement, Finance, Systems, and Facilities and Logistics—have all experienced FTE cutbacks.
Consequently, the ASCs have had to neglect their oversight and review responsibilities, and
reduce the level of services provided to clients.

As a result of inadequate core funding (see Figure 1 above), the basic staffing of the ASCs
declined from 501 to 389 over the past five years. To provide a historical perspective, staffing for

                                                       19
Department of Commerce                                                                   Final Report IPE-8569
Office of Inspector General                                                                        August 1997

all four ASCs in 1983 totaled more than 580 FTE. The impact of this decline has been that clients
have experienced a slow erosion of services, coupled with a perception of high cost.

Overall, the ASCs have experienced a 12 percent budget reduction from FY 1992 through
FY 1996.8 The FY 1996 budget included significant budget cuts, causing a greater decrease in
operating funds. The reductions varied by ASC, with EASC losing 17 percent; MASC, 12
percent; and CASC and WASC, around 8 percent. One of the consequences of these budget
reductions has been a constraint on the ASC travel budgets. This limits the opportunity for ASC
staffers to visit their clients’ field operations and regional offices to conduct training or to follow
through on projects or specific problems. It also frustrated efforts to continue the “lead ASC”
concept, whereby ASC functional managers would meet periodically with their ASC counterparts
to share new ideas.

B.    NOAA Has Failed to Fully Meet Its Responsibility to Oversee and Evaluate ASC
      Operations

Not only has NOAA had the responsibility to ensure adequate support for ASC operations, but it
has also been responsible for primary liaison between the ASCs, ASC customers, and the Office
of the Secretary on cross-functional issues. Additionally, NOAA’s Office of Administration has
been responsible for overseeing ASC operations, measuring and evaluating service delivery,
serving as an advocate for the ASCs with the Department, coordinating with the ASCs to solve
operating problems, and implementing “best practices” among all ASCs. However, these
responsibilities were often problematic for the following reasons:

  C Lack of performance measures. Although some efforts were made at having the ASCs
    collect workload measures, little came of these efforts. Some ASC division chiefs continued
    to collect workload measures, despite the perceived lack of interest by NOAA management
    in their usefulness.

  C Lack of NOAA headquarters coordination. With regard to NOAA’s support of and
    commitment to the ASCs, we were told by many ASC managers and staff that, except for
    the first OA Director when the ASCs were created in 1983 and on subsequent rare
    occasions, the ASCs have never felt that anyone in NOAA headquarters was “in their
    corner.” They also felt that NOAA management was better and at least more interested in
    the ASCs when they employed the concept of a “lead” ASC. This concept allowed each
    ASC to have a manager in a functional area, e.g., procurement, who then served as the lead
    for all procurement-related issues affecting the ASCs and their customers. The “lead”
    manager would then work with their colleagues, meet on a quarterly basis, and develop


        8
            Holding constant for FY 1995 dollars. Refer to Appendix C for a complete budget breakdown.

                                                       20
Department of Commerce                                                    Final Report IPE-8569
Office of Inspector General                                                         August 1997

      improved approaches to managing that task in the ASCs. The benefit of this concept was
      that it fostered collegiality among the managers, and promoted active discussion and
      development of new operating methods and procedures to streamline operations and
      improve customer service. The concept also allowed NOAA management to easily tap into
      the network of functional managers to exchange ideas and update them on departmental
      policies and procedures. This lead ASC concept , however, was ultimately abandoned—the
      result of travel budget constraints.




                                             21
Department of Commerce                                                                      Final Report IPE-8569
Office of Inspector General                                                                           August 1997

III. ASC Budgets and Billing Methodology Warrant Management Attention

The lack of departmental oversight, inadequate funding by NOAA, and outdated billing
methodology has resulted in questionable ASC resource constraints and client dissatisfaction in
recent years.

A.    Departmental Oversight of ASC Budgets Warrants Management Attention

When the ASCs were created in 1983, the Department and NOAA executed operating
agreements for policy direction and oversight of ASC operations. In 1987, the Department and
NOAA redefined the 1983 agreements to affirm that the Department would review and concur
with NOAA’s annual operating plans, NOAA’s budget formulation and execution process, and
the specific ASC operating budgets.

In July 1994, the Office of Inspector General conducted a special study, at the request of the
Department, in response to client complaints, to determine if ASC billings were fair and
equitable.9 The study was later expanded to include the NOAA budget process and management
oversight. The study determined that the non-NOAA clients were billed fairly and equitably.
Although no evidence was found that NOAA misdirected funds from non-NOAA clients, it did
find that NOAA had made unilateral decisions about the amount of ASC funding, thereby
affecting the level of services offered to ASC clients.

According to the OIG study, when the ASCs were created in 1983, they did not have an
organizational advocate at NOAA headquarters. Only through the perseverance of individual
managers were the ASCs successful in securing sufficient funding to sustain their operations.
However, subsequent personnel turnover at headquarters, coupled with the Department’s minimal
oversight, enabled NOAA to usurp the Department’s role. Furthermore, the OIG study
determined that these agreements were not effective because they were deficient in addressing the
specific departmental responsibilities and no funding floor was established for NOAA, thus
allowing the ASCs to be underfunded. According to the study, neither the 1983 agreement nor
the 1987 MOU were ever fully implemented by either NOAA or the Department. Based on our
observations during this review, we still believe these concerns are valid. We believe, therefore,
that the CFO and Assistant Secretary for Administration and departmental budget office have not
been conducting the proper oversight of the ASC budget.

We recommend, therefore, that the Department re-assert its responsibility to become more
involved in the ASC budget process, as called for in the earlier agreements and the MOU.



        9
            Special Study of ASC Billings and Funding, Office of Inspector General, July 28, 1994.

                                                         22
Department of Commerce                                                        Final Report IPE-8569
Office of Inspector General                                                             August 1997

B.    NOAA Did Not Fully Support ASCs’ Funding Needs

With little to no departmental oversight, and as the Department’s “host” for the ASCs, NOAA has
had complete control of the budget and funding processes. Client bureaus (including NOAA’s
line offices) have little—if any—input into the levels of funding or services provided. As
previously reported in the 1994 OIG special study, NOAA’s unilateral decisions to underfund the
ASCs has undermined the level of services offered to ASC clients.

First, the ASCs, with NOAA as their host manager, are subject to all funding constraints affecting
NOAA. The ASCs do not have a separate line item in the NOAA budget, for their budget request
is combined and submitted with the entire NOAA Office of Administration (OA) budget. The
NOAA Comptroller treats the budget as a program office request and issues a budget target for
the entire OA budget, including the ASCs. Thus, the ASCs, in effect, must compete for funding
approval within OA, and then against other NOAA line offices.

Second, the total budgets for the ASCs are not determined by the needs of the clients, but by
NOAA’s overall budget justification. The ASC billings are then calculated (see discussion of
methodology below) and distributed to the clients (NOAA and other Commerce agencies). Thus
the ASC billings received by the clients represent their and NOAA’s proportionate share. It’s just
that the congressional appropriations mark set by NOAA has been too low to adequately fund the
ASCs and restricts the level of services they can provide their clients. Therefore, the clients
experience a deterioration in the level of services received and question why they are paying
money for services they claim they can provide at less cost in-house. At MASC, the budget
reductions so severely affected the janitorial and guard services that NIST and NTIA offered to
pay for additional services outside of the usual ASC billing process. The funding process for the
ASCs must be more transparent. The Department, as well as the client bureaus, should be
represented with NOAA as members of a governing board, to ensure an adequate level of funding
to support the services needed.

C.    Outdated Billing Methodology Fosters Client Dissatisfaction

For the most part, the same measures, in place since 1984, continue to be used for billing. Pre-
defined measures for each core area are gathered and totaled. For example, ASC personnel costs
are distributed based on client headcounts; procurement costs are allocated based on small
purchases and contracts concluded; and real property services are billed based on sites and square
footage managed. These individual measures would determine the relative percentage of that
function’s workload for which the customer was responsible. NOAA would then calculate the
percentage against the ASC personnel and overhead costs in that function to arrive at a composite
ASC bill for services. If, for example, an agency had 10 percent of the staff requiring personnel
services from the ASCs, that agency would be charged 10 percent of the cost for maintaining the


                                               23
Department of Commerce                                                        Final Report IPE-8569
Office of Inspector General                                                             August 1997

ASCs’ human resources divisions. The billing is based on 14-year-old measures that were
intended only for temporary purposes, until better measures could be developed.

In addition to being outdated, the measures are not ideal. For example, the indices used to
measure real property workload—the total square feet of office/laboratory/warehouse space and
the number of sites managed—may not properly reflect the complexity and amount of work
accomplished. Particularly for non-NOAA clients, the ASCs’ facilities staff is used relatively less
than for NOAA clients, and the charges levied do not correspond with work required.
Furthermore, the complexity of the indices requires NOAA to commit up to one full staff year just
to track the data and perform the calculations. We believe that the Department, NOAA, and the
ASCs should collectively determine a simpler, more transparent, and equitable cost index, such as
number of employees served, to streamline the ASC billing process.

                                           ---------------

In its response to our draft report, the Department stated that it takes the ASCs’ mission very
seriously. The Department supports the concept of a board to advise on ASC operations, and has
established a Franchise Fund Board of Directors to fulfill that role.

We welcome the Department’s acknowledgment that it should occupy a key role in the
governance of the ASCs. We do, however, disagree with the approach, principally because it is
linked with the intended expansion of the NOAA franchise program. As we explain on page 60,
we believe it is premature to expand the franchise program until our concerns are addressed.
Thus, the Department should seek to establish a governing board that does not rely solely on
expanding the franchise program at this time.




                                                 24
Department of Commerce                                                         Final Report IPE-8569
Office of Inspector General                                                              August 1997

IV. ASC SERVICES: SOME ASPECTS ARE GOOD, OTHERS NEED
    IMPROVEMENTS OR DIFFERENT APPROACHES

A.    ASCs Receive High Marks From Clients

Despite declining resources, weak departmental and NOAA management direction and support,
and an array of other problems discussed in this report, the ASCs have done a commendable job
of supporting their clients’ administrative needs. We were impressed by the commitment to client
service displayed by ASC officials and employees. Even more important, clients who receive
ASC services overwhelmingly gave the ASC staff high marks for their service orientation,
resourcefulness, and dedication.

During our inspection, we found that the ASCs’ field clients that were very pleased with the
ASCs’ display of initiative and creativity. We also were impressed to observe such positive things
as the following:

  C The servicing ratio (the number of staff members to number of clients served) for the ASCs’
    human resources divisions approaches 1:85. This is reportedly better than any other
    Commerce unit, including NOAA headquarters—and close to reaching the Department’s
    goal of 1:100 by FY 1998.

  C MASC’s systems group has developed a method for electronic billing of bankcard
    transactions through the Rocky Mountain Bank Center, facilitating Commerce’s nationwide
    bankcard program. WASC’s systems group helped its ASC divisions with productivity-
    enhancing modifications to systems software to offset the erosion of staffing resources.

  C Based on a departmental survey in 1995 and our extensive interviews, ASCs get high marks
    for client satisfaction with their services.

In the following sections, we examine each of the five areas of administrative functions offered by
the ASCs. We have made recommendations where we think the ASCs can best provide those
services in the field, and also where we think the services can be more efficiently and effectively
provided by either outsourcing to another agency or consolidating at one location. It is only
recently that NOAA senior management, specifically the CFO, has critically examined the services
offered at each ASC with the objective of determining whether they can provide services in a
better manner.




                                                25
Department of Commerce                                                                 Final Report IPE-8569
Office of Inspector General                                                                      August 1997

B.     Human Resources Divisions: Some Functions Should Be Consolidated, Automated, or
       Improved

Although the human resources divisions service their customers well, the ASCs’ delivery of
human resources services can be restructured to streamline operations and provide greater
efficiencies. Specifically, NOAA and the ASCs can (1) consolidate certain human resources
functions and (2) aggressively integrate automation technology into human resources processes.
NOAA has already begun to move in this direction.

We concluded that the ASC human resources (HR) divisions generally are doing a good job. For
example, the ASCs’ collective human resources staffing ratio of 1:85 is better than ratios found
within the Department: Office of the Secretary, 1:59; ITA, 1:38; NIST, 1:69; NOAA
Headquarters, 1:65; and PTO, 1:56.10 The ASCs’ HR divisions received a 92 percent overall
approval rating in a 1995 customer satisfaction survey, and this was confirmed during our
extensive interviews with numerous ASC clients, who gave the HR offices high marks.
Moreover, the HR division was one of the top two divisions that clients felt they wanted the
ASCs to retain. Nevertheless, we believe that given this era of budget cuts, NOAA must
streamline its operations by consolidating what are commonly referred to as “back room” services
(services that do not require face-to-face contact with customers). It appears that these services
could best be consolidated at the Central Administrative Support Center in Kansas City. Smaller
HR units should operate at the remaining ASCs to provide “high-touch” services only.

  1.    Certain human resources functions should be consolidated

During our review, we identified certain human resources functions (employee benefits, staffing
and recruiting, time and attendance, training, and personnel and payroll processing) that clearly
lend themselves to consolidation. These functions—which are duplicated at all ASC
sites—should be performed centrally at one location, rather than five11 to achieve greater
efficiencies and economies of scale. These functions lend themselves to consolidation at one
location for they do not require close proximity to, or coordination with, the client. Consolidation
would also improve the assignment of workflow and potentially reduce the number of
management layers.

We also identified human resources functions that should remain at the individual ASCs. Such
services include specialized staffing and recruiting, awards, counseling, pay and leave
administration, specialized position classification and/or management, and employee and labor
management relations. We found that such “high-touch” services are of great value to managers

        10
             Department of Commerce, Human Resources Data System, pay period ending July 20, 1996.
        11
             The four ASCs plus NOAA Headquarters’ Office of Human Resources Management.

                                                      26
Department of Commerce                                                                     Final Report IPE-8569
Office of Inspector General                                                                          August 1997

and need to be accessible to them as much as possible. We therefore recommend that HR
customer support units remain at the ASCs to continue providing advisory services in these areas
to managers and employees.

As automation is phased into the HR community, other non-processing tasks should be
consolidated, such as non-specialized staffing and recruiting, employee benefits, time and
attendance, and training. Official personnel folders should also be optically scanned, maintained in
digitized format, and stored at a consolidated site to save on office space and staff resources while
still permitting remote access by personnel specialists nationwide.

Automation will significantly aid in the transformation of the ASCs’ HR offices. The electronic
transmission of data will eliminate the importance of geographical location and streamline
repetitive, labor-intensive processes. The Department has already deployed a number of
initiatives while others are soon to be piloted. For example, Employee Express12 has successfully
been implemented throughout the Department,13 significantly reducing paperwork and the HR
workload. New modules will soon be added to this program to reduce paperwork even more.

                                                  ---------------

In its response to our draft report, NOAA concurred with our recommendation for consolidating
certain human resources processing functions, but stated that it is critical that those functions first
be automated, then consolidated, to achieve the greatest operational efficiency. We agree with
NOAA’s approach.

NOAA also concurred with our recommendation that specialized HR functions, characterized as
“high-touch” advisory functions, remain at each of the ASCs.

  2.   NOAA has already begun to restructure HR delivery

NOAA and the ASCs are already moving in the direction of consolidating functions and
automating HR processes. Specifically, NOAA plans to consolidate all human resources
processing functions, e.g., personnel and payroll processing, as well as certain non-processing
functions, at one location—to be called a Customer Service Center. Additionally, NOAA has
developed a three-year timetable for implementing various initiatives that will improve HR




        12
            An automated government-wide system that enables employees to make changes to certain personal
data: federal tax withholding, direct deposit of pay and allotments, and residence and check mailing addresses.
        13
             Except for the Census Bureau.

                                                        27
Department of Commerce                                                                  Final Report IPE-8569
Office of Inspector General                                                                       August 1997

processes.14 NOAA estimates full completion of its restructuring efforts of the HR divisions both
at headquarters and the ASCs by the end of FY 2000, at which time the Customer Service Center
should be fully operational. We support NOAA’s efforts to streamline its human resources
services for better efficiencies.

Some of NOAA’s proposed savings in HR staffing resources will be achieved through
enhancements to automated initiatives that have been implemented over the past few years, such
as Employee Express, the performance appraisal software system, and the position description
library. However, several new automated initiatives to be implemented will further streamline
human resources processes by providing the capacity to produce electronic vacancy
announcements, perform electronic ranking, and streamline the merit assignment program. Full
deployment of the Electronic System for Personnel and software to perform retirement
calculations will permit further consolidation of services.

As mentioned above, NOAA will also consolidate various non-processing functions, including
time and attendance, awards, and general issues concerning employee benefits. Additionally,
NOAA anticipates developing a “corporate university” for training needs and digitizing
employees’ official personnel folders, which will facilitate a full provision of human resources
services to clients in the area of benefits administration.

  3.   Targeted FTE savings in HR restructuring

According to NOAA’s estimates, by the end of FY 2000, its HR divisions will save about 65
FTEs and almost $2.5 million due to consolidation and automation of human resources processes.
In other words, NOAA will achieve an overall FTE savings of 33 percent from its post-RIF
staffing level of 196 FTEs in FY 1996. Based on our own review and analysis of other federal
agencies and their anticipated savings due to HR restructuring, we believe that NOAA’s estimates
are reasonable.

Early in our inspection, we asked each ASC HR division chief, as well as NOAA’s HR director,
to estimate the number of FTEs devoted to each human resources function. We then identified
the number of FTEs dedicated to those functions that are candidates for consolidation and
examined potential FTE savings. As shown in Table 4, we found that out of about 200 FTEs in
the ASC and NOAA headquarters human resources community, approximately 95 are committed
to functions that can be consolidated.




        14
            NOAA/HR identified changes to be made in five categories: automation, staffing program
simplification, work process analysis, HR organization issues, and new HR initiatives.

                                                      28
Department of Commerce                                                           Final Report IPE-8569
Office of Inspector General                                                                August 1997

           Table 4. Estimated FTE Savings Due to Restructuring Human Resources

                              Current   Less savings from   Total    Less savings from          Future
                              FTEs      automation (23%)    FTEs     consolidation (25%)        FTEs
Consolidated FTEs              94.9        -21.8             73.1        -18.3                   54.8
“High-Touch” FTEs             105.2        -24.2             81.0          -0-                   81.0
Total FTEs                    200.1        -46.0            154.1        -18.3                  135.8

NOAA could potentially realize a savings of 23.7 FTEs merely by consolidating HR functions.
For example, the Department of Defense was able to realize FTE savings of 25 percent by
consolidating HR processing functions. Moreover, by integrating various new automation
initiatives into human resources processes, NOAA should realize an additional 23 percent FTE
savings at both the consolidated site and the remaining human resources advisory units. Again,
these savings are based on the experience of Defense Department HR managers we interviewed.
Hence, as a result of both consolidation and automation, we estimate that NOAA should realize a
combined savings of 64.3 FTEs—or 32 percent.

We therefore believe that NOAA’s preliminary savings estimates of 64.3 FTEs—an overall FTE
savings of 33 percent—are reasonable. Additionally, based on the average salary of $40,000 for
each ASC HR employee, NOAA should indeed realize a dollar savings of at least $2.5 million.
NOAA is correct to recognize that efficiencies, economies, and management improvements can be
achieved by consolidating and automating HR processes, and we urge it to stay on schedule and
move forward. At the time of our inspection, however, NOAA had not yet identified a location
for its Customer Service Center, although its establishment is only three years away.

  4.    HR’s Customer Service Center should be located at CASC or another ASC

We believe that NOAA’s consolidated Customer Service Center for human resources should be
located at an existing ASC. Based on the following factors (or reasons), we conclude that the
Central Administrative Support Center in Kansas City is a prime candidate for HR consolidation.
The CASC:

  C    currently has the highest staffing/service ratio of the ASCs (1:92);
  C    has the lowest average cost per HR employee;
  C    is centrally located to minimize time zone differences;
  C    is increasing its client base under NWS’s streamlining plan;
  C    continues maintenance of its NMFS client base under that agency’s restructuring plan;
  C    has the second lowest cost for space and second lowest pay differential;


                                                   29
Department of Commerce                                                                   Final Report IPE-8569
Office of Inspector General                                                                        August 1997

  C ranked second in a 1995 customer satisfaction survey; and
  C has the necessary staff competency as human resource advisors.

While widespread deployment of all automated initiatives and the creation of the consolidated
service center is three years away, it is important for NOAA and the ASCs to select a location
now to begin planning its implementation. Furthermore, NOAA can begin to consolidate
processing functions before the automation initiatives are fully integrated. Table 5 (below)
demonstrates how the ASCs and NOAA human resources offices compare with each other.

          Table 5. Comparison of the ASCs’ and NOAA’s Human Resources Offices

 Rating factors         Staffing     Avg. cost per      Cost per      Pay                   Customer
                        ratio (a)    employee (b)       sq. ft. (c)   differential (d)      satisfaction (e)
 EASC                         1:76        $498            $16.24           4.13%                  90%
 CASC                         1:92        $443            $12.47           4.38%                  77%
 MASC                         1:83        $513            $15.00           6.34%                  66%
 WASC                         1:88        $502            $10.75           6.44%                  67%
 NOAA                         1:65        $792            $10.75           6.04%                   n/a

Source:
(a) Data from the Human Resources Data System - Personnel Staff Ratio, August 7, 1996.
(b) Personnel Staff Ratio Report.
(c) Obtained orally from Facilities and Logistics personnel.
(d) Based on Federal Salary Tables, effective January 1996.
(e) Based on the 1995 Customer Satisfaction Survey results.

NOAA and the ASCs should plan for their long-term needs now, for such restructuring will
eventually affect everyone working in, and serviced by, human resources offices. In the future,
we expect the need for full-service HR offices at each of the ASCs to disappear. As a result,
NOAA must strive to keep disruptions to a minimum by managing workloads through attrition
and hiring new employees on a temporary basis only. If NOAA starts planning now, targeted
reductions potentially can be reached without, or with minimal, reductions-in-force. Preliminary
results and anticipated savings of other agencies’ efforts reveal that the deployment of automation
technology, coupled with the consolidation of various human resources processes, produce
economies of scale and is a prudent way to deliver services.




                                                     30
Department of Commerce                                                         Final Report IPE-8569
Office of Inspector General                                                              August 1997

In summary, NOAA managers have recognized the need to move in the direction of restructuring
the delivery of human resources services. We support this move and encourage NOAA to
aggressively move ahead with its implementation plans to:

  C Consolidate all personnel/payroll processing functions and non-processing services—non-
    specialized staffing and recruiting, time and attendance, and employee benefits—at a
    Customer Service Center;

  C Maintain at the ASCs only advisory services for “high-touch” areas, such as specialized
    staffing and recruiting, awards counseling, pay and leave administration, position
    classification, employee relations, labor management relations, and performance
    management; and

  C Aggressively implement automation initiatives to achieve greater efficiencies.

                                           --------------

In its response to our draft report, NOAA’s senior HR official stated that a physical consolidation
of many HR functions is feasible and may ultimately be done. At this time, however, NOAA is
continuing to further automate its processing functions while also evaluating the feasibility of
creating a “virtual organization” for HR, which would effectively consolidate many processing
functions through information technology linkages.

NOAA’s stated approach appears reasonable. We request that we be kept apprised of its
progress.

C.    Procurement Divisions: Changes and Consolidation Offer Opportunities to Improve
      Operations

After visiting the four ASCs and interviewing representatives from the various Commerce field
offices, we believe that the ASCs’ procurement divisions generally continue to perform a
necessary function. Although we do not advocate immediate action to consolidate procurement
offices, we believe consolidation of some ASC procurement offices will be possible following full
CAMS implementation. For the immediate future, and as an initial step toward future
consolidation, proper workload measures and staffing requirements must be identified and put in
place.

The procurement divisions are responsible for acquiring personal property and nonpersonal
services using small purchase procedures or, when the requisition exceeds $25,000, through the
formal contracting process. They also approve Commerce purchase card applications, set card
limits, and inspect purchase card transactions for misuse. Within the procurement offices, we

                                                31
Department of Commerce                                                        Final Report IPE-8569
Office of Inspector General                                                             August 1997

found circumstances that raise concerns, namely (1) staff reductions that threaten oversight and
management responsibilities and (2) inadequate purchase card oversight.

  1.   Staff reductions threaten procurement oversight and management responsibilities

The inadequate staffing levels of the ASCs’ procurement divisions and the lack of ASC and
departmental oversight weaken the ability to detect fraud and abuse. As a result of budget
constraints and an NOAA Office of Administration hiring freeze, three of the ASCs have
experienced significant decreases in procurement staff. Together, the ASCs have lost 15 percent
of the ASC procurement staff over the past four years. MASC and EASC have lost the greatest
number of staff, 7.2 FTE (32 percent) and 3.5 FTE (20 percent) respectively, followed by CASC
with a 2.4 FTE (16 percent) reduction. WASC has had a slight increase of 1.0 FTE (5 percent)
since FY 1992.

Moreover, we found no rationale for the current allocated procurement staffing levels at the
ASCs. The relationship between staff size and procurement workload, at the time the ASCs were
established, was a ratio of one employee to 1,000 small purchase transactions and one employee
to 40 contract actions. According to the ASCs, these measures are now outdated and no longer
used. Since the early 1990s, procurement staffing levels and composition have been based on
budget constraints, hiring freezes, and attrition. Simply put, procurement staffing decisions are
reactionary, and not the result of a deliberate process that uses appropriate measures which take
into consideration the workload and oversight responsibilities.

The ASCs report that as a result of insufficient staffing, the backlog of pending procurement
actions has increased and oversight decreased. One procurement chief stated that the staffs have
time to question only the most blatant irregularities, forcing them to be less thorough than they
should be. Budget constraints also affect oversight responsibilities. MASC, the ASC that has
undergone the largest reduction in core procurement staff, reports that it has not made an
oversight visit to a field office with delegated procurement authority since August 1992, due to
staffing and travel budget constraints.

The work in the small purchase area is also changing. Department-wide, from FY 1991 to FY
1995, purchase card transactions increased by 66 percent, while the number of small purchases
declined by 22 percent. The ASCs report that staff reductions in the small purchase branches
have been possible only because of the decrease in the overall workload, which they attribute to
the increase in purchase card use. During the same period, the number of small purchase
transactions at the ASCs fell 28 percent, while the average dollar value increased 94 percent, from
$2,734 to $5,295 per transaction. These figures support the assertion made by the ASCs that the
purchase card is generally used for small-dollar, relatively uncomplicated acquisitions, while the
remaining procurement workload for the divisions consists of the more complex, time-consuming,
large-dollar transactions.

                                                32
Department of Commerce                                                        Final Report IPE-8569
Office of Inspector General                                                             August 1997

Historically, the measure used to gauge productivity was the number of procurement actions
processed per staff member. Using that measure, CASC has the best performance with the
highest number of transactions per FTE. However, the measure does not take into account the
complexity of the work involved. For example, in the small purchase branch, WASC has the same
number of FTEs, but processes one-half the number of transactions as CASC.15 Yet the average
transaction dollar amount is twice as high for WASC. Therefore, it would appear that a new
measure for productivity must be developed that takes into account not only sheer transaction
volume, but other factors as well.

Currently, no data is collected that defines appropriate procurement staffing levels at the ASCs.
As a result of underfunding and a hiring freeze, the procurement staffs are overworked, creating
work backlogs, reducing oversight, and limiting the efficiency and effectiveness of the
procurement process. NOAA should link staffing levels to the procurement workload demand,
such as volume, complexity, and available staff expertise. Appropriate data should be collected,
and measures should be developed and updated periodically, that take into account the complexity
and the amount of time in the pre-award, post-award, and contract-closeout phases, to determine
the correct staff composition and size.

                                          ---------------

In its response to our draft report, NOAA agreed that procurement staffing levels should be
linked to workload demand and stated that the Department is analyzing workload complexity
issues that may be useful to NOAA.

We want to emphasize that planning for staffing levels should focus on future workload demands.
NOAA’s response in the next section on Finance Divisions asserts that CAMS is on the verge of
implementing a pilot test in the finance and procurement areas, thus solving the problems
associated with the current outdated, burdensome payment systems. In a briefing by the NOAA
CAMS group, and confirmed in a draft document with targeted milestone dates, procurement is
following the same roll-out approach as the Finance module, Accounts Payable. NOAA estimates
that the Procurement module will be in the ASCs by the summer of 1998.

As we stated in the report, although we do not advocate immediate consolidation of procurement
offices, we believe that consolidating some ASC procurement offices will be possible following
full CAMS implementation. However, as an initial step toward future consolidation, proper
workload measures and staffing requirements must be identified and put in place, particularly with
respect to CAMS.



        15
             See table in Appendix C.

                                                33
Department of Commerce                                                                 Final Report IPE-8569
Office of Inspector General                                                                      August 1997

  2.   Purchase card oversight is inadequate

Purchase card oversight continues to be cursory and haphazard. The day-to-day operations in the
ASC procurement offices take precedence over purchase card reviews. In April 1996, the
Department had 5,482 active purchase cards, with the ASCs responsible for 3,522, or 64 percent.
Each ASC Procurement Division chief as Head of the Contracting Office (HCO), is responsible
for approving purchase card applications, setting dollar limits for card holders, and conducting
reviews of the purchases made for all cards in the ASC’s geographic region.

The Commerce Acquisition Manual, Part 13, “Commerce Purchase Card Procedures,” outlines
the policies and procedures for the purchase card program. The HCO oversight responsibilities
are set forth in Section 6.b. (4): Reviewing the purchase card program at least once a year to
ensure that the cardholder and the cardholder’s approving official use internal control and
operating procedures; and Section 6.b. (6): Ensuring that the purchase card is being used properly
by periodically reviewing purchases and determining whether to withdraw delegations and
appointments if misuse is found.

We found no evidence of a systematic approach to conducting the reviews at any of the sites.
The limited number of staff responsible for the purchase card program within the ASCs ranges
from 0.5 to 1.77 FTEs, most of whom have collateral duties. Quarterly, the HCOs and the
Commerce Bankcard Center (CBC) receive, from the Rocky Mountain Bank, an “Account
Summary Report” containing vendor name, dollar value, and the standard industrial classification
(SIC) of the purchased item. All ASC HCOs report that reviews are conducted, by themselves or
staff, by skimming through the report for abnormalities, such as odd vendor names, split
purchases, or purchases with unusual SIC information.

CBC (as the Contracting Office Technical Representative) and the HCOs both have authority to
suspend cards if abuse is suspected. During FY 1995, more than $64 million, or 216,363
purchase card actions, were made in the Department. However, the ASCs have no
documentation on how many cards have been revoked, whether the card suspension was
permanent or temporary, and whether there are systemic patterns of abuse.

In September 1995, an OIG audit report, Commerce’s Purchase Card Program Needs Stronger
Internal Controls and Oversight,16 found the reviews conducted by the HCOs—of Rocky
Mountain Bank purchase card transactions—to be insufficient. The audit recommendations
directed all agency HCOs to conduct periodic reviews to ensure the propriety of purchases, full
compliance with regulations and procedures, and adequacy of controls. In response to the report,


        16
          Office of Inspector General, Office of Audits, Economic Affairs Division, EAD-7301-5-0001,
September 29, 1995.

                                                     34
Department of Commerce                                                        Final Report IPE-8569
Office of Inspector General                                                             August 1997

the Department’s Office of Acquisition Management agreed with the recommendation and has
taken action. The HCOs will now conduct quarterly reviews of bankcard purchases, which will
be reviewed by the Office of Acquisition Management.

In light of the limited resources due to downsizing and the lack of departmental procurement
oversight,17 we believe that NOAA should consolidate the review responsibility at CBC in Kansas
City, and establish a systematic approach for conducting purchase card reviews. CBC will then be
responsible for establishing an oversight program that includes, but is not limited to, conducting
audits on a random sampling of transactions and audits on vouchers that meet specified criteria.
A consolidated location will be able to maintain records of Bankcard abuse and assess the data for
trends. CBC is the ideal location for consolidating oversight for a number of reasons: it has been
running the program since 1988, has been proactive in the past in highlighting problems and
alerting the appropriate officials, operates the purchase card database, and is the single contact
point with the Rocky Mountain Bank. Finally, training for detecting purchase card abuse would
be concentrated in one location.

CBC would also be responsible for periodically informing purchase card holders and approving
officials—using E-mail, direct mail to purchase card holders and approving officials, and notices
in Commerce People (a monthly publication for Commerce employees)—about departmental
policy changes to the purchase card program, proper uses of the purchase card, and the
consequences of misuse. The CBC director estimated one additional full-time equivalent position
would be adequate to oversee the present workload. The HCOs should retain the responsibility
for reviewing and approving purchase card applications and purchase limits, as the ASCs know
best the small purchase requirements of the field sites.

                                                 ---------------

In its response to our draft report, NOAA disagreed with the recommendation to eliminate
purchase card oversight at the ASCs, stating that the ASC personnel are intimately familiar with
the current systems and reports related to purchase cards and would have a broader view of
trends in use and abuse of the card than the Commerce Bankcard Center.

We believe the most efficient way to review the hundreds of thousands of transactions is through
automation. The Commerce Bankcard Center currently does automated oversight for non-
Commerce customers. The software and systems are already in place to do quarterly automated
reports that summarize purchases by Standard Industrial Classifications and highlight unusual
purchases. In addition, they could be modified to highlight multiple purchases from the same
vendor and multiple purchases made on the same day. The reports could be done daily, weekly,


        17
             Office of Inspector General, EDD-8279-6-0001.

                                                       35
Department of Commerce                                                                  Final Report IPE-8569
Office of Inspector General                                                                       August 1997

monthly, or quarterly. Procurement reviews should continue to include random audits of
bankcard purchases.

The bankcard module is targeted to be piloted by May 1998. Unfortunately, how system
oversight will be built into the bankcard module is not known at this time. Therefore, we reaffirm
our recommendation for consolidation of this function at the CBC.

D.     Finance Divisions: Much of Their Workload Should Be Outsourced

Administrative payments, the bulk of the workload for the ASC finance divisions, refer to the
activities for making payments for all services, supplies, and materials (everything except payroll).
At the ASC finance divisions, we found that (1) the process to make administrative payments for
NOAA and the Department is outdated, burdensome, and costly, and (2) imprest funds are no
longer needed and should be eliminated. The finance division responsibility for third-party
relocation (permanent change of station) is addressed later in this section.

  1.    Administrative payments process is outdated, burdensome, and costly

The ASC finance divisions are responsible for making payments and communicating financial
information to their NOAA headquarters counterpart, the Finance Services Division (FSD).
Most of the workload for the ASC finance divisions and FSD involves making payments in
response to a procurement action. However, unlike the acquisition process, the payment process
is basically invisible to the client, until there is a problem.

All of NOAA’s administrative payments fall into either of two systems, the Departmental Payment
System (DPS) or the NOAA Payment System (NPS). DPS is responsible for making payments
for travel, imprest fund, FEDSTRIP,18 transportation, and purchase orders. Although NOAA
originally made the DPS payments for all of Commerce, the larger bureaus—such as PTO, NIST,
and, recently, Census—now make their own payments. For the remaining bureaus using the DPS,
a paper copy and a tape of the financial information are sent weekly to the bureaus, in a format
that corresponds with their individual financial management systems. The NPS, developed in the
late 1980s, is used to make the remaining payments, such as for grants, contracts, utilities, and
interagency agreements.

Both payment systems are woefully outdated. The DPS software is the original system given to
Commerce by the Department of Agriculture in 1981. Problems with the conversion from USDA

        18
            FEDSTRIP (Federal Standard Requisitioning and Issue Procedures) is a standard supplies procurement
program run by the General Services Administration, which maintains a catalog of standard office supplies that
may be bought from the FEDSTRIP listing. The purchasing agency obtains the supplies directly through the GSA
contractors or through interagency transfers using small purchase forms and procedures.

                                                      36
Department of Commerce                                                         Final Report IPE-8569
Office of Inspector General                                                              August 1997

to Commerce, advances in hardware, and changes in laws, regulations, and procedures have
reportedly resulted in multiple, inconsistent, and often undocumented software changes and
system problems. A significant impending change includes adapting the software to accommodate
year 2000, or the double zero, date entry. For the NPS, the software is no longer capable of
being modified, due to a lack of programmers to correct all of the problems. FSD produces a
document, known as “Report 4,” which lists the number of transactions and documents, and
dollar amounts, for each document type processed by the individual finance divisions. Report 4
continues to be issued monthly by FSD staff, even though they acknowledge that the information
is inaccurate. The inaccurate information is attributed to the outdated software that has not
reflected changes—additions, deletions, or modifications—in document types. While some FSD
staff have tried to eliminate the report, they cannot because it is the only source that provides
some statistical (albeit partially inaccurate) data on the NPS workload.

Both systems are burdensome. The DPS is a slightly more sophisticated system in that Treasury
and other Commerce internal reports are electronically generated. The ability to change the
reports or create new ones while not impossible, is arduous. For example, tax information for
permanent changes of station must be done manually because the tax rates cannot be
automatically updated. And for several months, the four ASCs, FSD, and the ASC coordination
staff manually collected and tabulated travel voucher information in response to a congressional
request. For at least one ASC, that task required going to the National Archives and retrieving
boxes of prior-year vouchers. The NPS is more labor-intensive than the DPS, relying on paper
input and requiring more manual data entry and calculation. For NOAA, data from the DPS and
the NPS are downloaded into its financial management system.

Both the DPS and the NPS are costly. Based on the best information available at the time of our
review, approximately 157 FTEs are required to process payments for the two systems. The
estimated personnel cost to process administrative payments at the five locations is more than
$7.8 million, not including rent, utilities, and overhead (see Table 6 below for a cost breakdown).

Due to the inefficiency of the current systems, maintaining the status quo is not a viable option.
Commerce and NOAA officials have long recognized the problems associated with administrative
payments, and have hoped that these problems will be corrected with the implementation of
CAMS. We recognize that CAMS should ultimately revolutionize the bureaus’ and the
Department’s administrative payment processes. Because of the likely delays for the upcoming
modules (see page 10), we believe a change must occur before the full implementation of CAMS.




                                                37
Department of Commerce                                                                Final Report IPE-8569
Office of Inspector General                                                                     August 1997

Over the past 15 years, a number of studies have recommended, as a more cost-effective
alternative, outsourcing the administrative payment function to another agency. For illustrative
purposes, we compared the costs of the current NOAA finance operation(s) to another
government-operated administrative payment center. This example uses the USDA’s National
Finance Center (NFC) in New Orleans, Louisiana, although other centralized centers exist, such
as the Department of Health and Human Services’ Program Support Center in Rockville,
Maryland, and the Department of Veterans Affairs’ Finance Center in Austin, Texas.

              Table 6. FY 1996 Cost Estimate of NOAA Administrative Payments

                 FY 1996                          FTEs                           Cost
                 Locations                Core       Non-Core           Core          Non-Core
       FSD:19 (9P1B1010)                  36.5             0          $1,677,900               $0
                (9P1B1011)                43.0             0          $2,732,600               $0
       EASC                               13.1            1.9           $570,700         $65,700
       CASC                               21.8            3.0           $985,100        $143,400
       MASC                               14.4             1            $717,000         $48,387
       WASC                               20.5            1.9           $744,900         $85,670
                   Total                  149.3           7.8         $7,428,200        $343,157
       Total, Core and Non-Core                   157.1                      $7,771,357

As previously mentioned, the FSD document referred to as Report 4 (which shows the
administrative payment workload—number of transactions per document type) is, by FSD’s own
admission, inaccurate and incomplete. Lacking reliable workload data, we were only able to
calculate a cost and savings estimate on a per capita—as opposed to the preferred
transaction—basis. A considerable amount of work will need to be done to determine the precise
cost of outsourcing and to select the most appropriate service provider. Our estimate was derived
using an average cost for three agencies that are current NFC customers, ranging from 12,100 to
43,749 employees. The NFC cost per employee (based on the average number of NFC employees




        19
           FSD figures are estimates from NOAA’s Information Systems and Finance Office; ASC figures were
provided by each ASC.

                                                    38
Department of Commerce                                                                      Final Report IPE-8569
Office of Inspector General                                                                           August 1997

paid per month) is $181.20 Our estimate of the annual NFC cost to handle NOAA’s administrative
payments processing systems—FEDSTRIP, imprest funds, transportation, purchase orders, travel,
gasoline credit cards, Federal Procurement Data System, Federal Telephone System payments,
miscellaneous payments, vendor payments, and utility vendors—is approximately $4.6 million.
This calculation was arrived at by multiplying the NFC’s per capita cost of $181 (based on the
average cost of three current NFC customers) against the current number of Commerce
employees (25,577) serviced by the ASCs and FSD. NOAA’s staffing costs for administrative
payments—excluding costs for space, systems and overhead—are close to $7.8 million.
Outsourcing of this function could, therefore, result in an annual estimated savings to NOAA of
up to 157 FTEs and as much as $3 million (plus additional savings from reducing associated
facilities, systems, and overhead costs). While our calculations are approximate, we believe the
potential savings make it incumbent upon NOAA to move expeditiously to outsource
administrative payments. (See Appendix E for a breakdown of NFC costs)

In addition to the projected cost savings, outsourcing has other advantages. Although NOAA’s
FY 1996 year-end total of 13,347 FTEs was within its FY 1996 ceiling of 13,874 FTEs, NOAA
will exceed its FY 1997 FTE ceiling of 13,244, unless further actions are taken.21 Given NOAA’s
FTE constraints and the growing preference to preserve FTE resources for “programmatic”
efforts rather than administrative support, outsourcing administrative payments is an excellent
way to save FTEs, and still get the job done.

Each of the ASC customers we spoke to stated that the finance processing operations could be
done anywhere. With a proper front-end systems interface, outsourcing could appear
seamless—not requiring extra steps or intervention by the ASC customers. At the same time, we
recognize that there are potential disadvantages to outsourcing the administrative payments
function (see Table 7 below). There would be significant reduction-in-force costs—both personal
and financial—associated with eliminating as many as 157 FTEs. However, a phased (e.g.,
document-by-document) approach would allow for a planned, gradual, less painful drawdown of
personnel and duties.

Furthermore, actions to outsource administrative payments need not and should not be postponed
until CAMS is implemented. First, it is difficult to believe in the reported timetable for CAMS
implementation, given the frequent extensions for completing project milestones. Second, the
CAMS project team cannot yet predict which administrative functions will disappear or estimate
the staffing reductions (and ultimate savings) CAMS implementation will yield. Finally, we have
been told by departmental officials that outsourcing administrative payments would not pose a


        20
             Appendix E includes a table showing the computations used for this estimate.
        21
             Information provided by the Department of Commerce Office of Budget.

                                                        39
Department of Commerce                                                     Final Report IPE-8569
Office of Inspector General                                                          August 1997

problem for linkage with CAMS. Although we have been told that outsourcing would involve a
one- to two-week delay for transfer of payments information on tape, we believe this would be
manageable, and payment tracking by Commerce customers would not be an issue given that
payment centers have payment inquiry lines. Reconciliation is an issue. However, as the
Department moves away from paper-based processes toward electronic processing, reconciliation
becomes easier. Furthermore, at this stage, a number of the proposed CAMS modules will
require additional software programs to communicate between systems.

             Table 7. Costs and Savings of Outsourcing Administrative Payments

                                                            FISCAL YEAR
      Outsourced to another Agency                  1997   1998    1999   2000    2001
      COSTS:
      ' mechanisms (e.g., software) to relay         X
        administrative payment information to a
        vendor                                       X
      ' costs to interface with current (or
        future) systems for reconciliation           X
        purposes                                     X       X
      ' initial start-up “system” costs              X       X       X      X       X
      ' reduction-in-force costs for 157 FTEs        X       X       X      X       X
      ' contract costs
      ' contract administration costs
      SAVINGS:
      ' 157 systems and finance FTEs
      ' 8 line office-funded FTEs
      ' lease and space costs for five sites
      ' computer system charges
      ' systems maintenance and upgrade
      ' overhead costs

The largest hurdle for the Department and NOAA to overcome will be giving up the perceived
advantages of “owning” the administrative payments function. We believe, however, that over
the long run, the benefits of outsourcing outweigh the costs of keeping and maintaining the
payment-processing function in-house.




                                               40
Department of Commerce                                                         Final Report IPE-8569
Office of Inspector General                                                              August 1997

                                           ---------------

In their responses to our draft report, NOAA and the Department agreed with our basic
observation that NOAA’s administrative payments processes and systems are a special problem
and, in response to our recommendation, have committed to giving these matters added attention.
In its response, NOAA acknowledged that

         “...Commerce’s current methods for making administrative payments are outdated,
         burdensome, and costly. The software is old and weak. The overall approach is
         fragmented, both in terms of document types and organizational responsibilities. Second,
         CAMS should ultimately revolutionize the bureaus’ and the Department’s administrative
         payment processes.”

Obviously, NOAA’s assessment parallels our concerns and observations. It was this
unsatisfactory state of affairs and the continued uncertainties associated with the implementation
of CAMS that led us to conclude that NOAA should explore the alternative of outsourcing the
administrative payments functions.

NOAA, however, does not agree that outsourcing is potentially more cost effective, particularly
given the impending implementation of the administrative payment component of CAMS.
Specifically, in responding to our draft report, NOAA raised a series of questions challenging the
validity of the draft report’s National Finance Center (NFC) cost comparison.

The NFC example was intended as only one of several possibilities that NOAA should explore.
Moreover, as we noted in the draft report, NOAA’s lack of accurate workload and related
financial information at the time of our review made it impossible to complete the kind of analysis
that NOAA suggested in its written response. Hence, the questions NOAA raised should be
addressed by NOAA officials as they conduct the necessary comparison assessment. We reiterate
that the NFC cost estimate was provided merely to illustrate that outsourcing was a viable option
that should be carefully considered—not categorically dismissed. We stated in our draft report,
and noted during our discussions with NOAA personnel, that considerable work needs to be done
to determine the precise cost of outsourcing. Finally, the NFC comparison was made because of
the availability of historical billing information. Our intent was not to recommend NFC as the
only option, but instead to encourage NOAA to explore a number of administrative payment
service providers as an efficient, more immediate solution to replace the current outdated,
burdensome, and costly systems.

NOAA’s primary reason for not exploring the outsourcing of its administrative payments system
at this time is its claim that administrative payments will be one of the first CAMS modules to be
implemented. It states that the revised CAMS implementation schedule has the existing payment
systems being replaced by the beginning of FY 1999. NOAA adds that the current departmental

                                                 41
Department of Commerce                                                        Final Report IPE-8569
Office of Inspector General                                                             August 1997

initiative and renewed commitment will have CAMS operational in time for NOAA to meet that
implementation date. Moreover, NOAA believes that outsourcing the administrative payments
would pose a special problem with linkage to CAMS that will preclude an integrated system and
delay data input. Finally, NOAA officials suggest that any efforts taken now to seriously explore
outsourcing administrative payments will divert limited staff time and expertise away from the
completion of CAMS.

After receiving NOAA’s and the Department’s responses, we had extensive discussions with both
departmental and NOAA CAMS personnel to better assess the system’s status. We received a
mixed message on the status of CAMS. Some personnel told us that significant progress has been
made, in part because of the Department’s renewed urgency, and that a limited portion of CAMS
is being pilot tested. However, other personnel seriously questioned whether CAMS and the key
modules can be fully implemented in accordance with reported schedules and revised time-frames.
We too remain skeptical and question whether the revised schedule is realistic.

But, giving NOAA and the Department the benefit of the doubt, we have deleted our
recommendation to outsource the administrative payments at this time. We believe it best not to
advocate any change at this point that might provide another excuse for CAMS being so far
behind schedule. In doing so, we believe that NOAA and departmental officials should have the
maximum latitude and opportunity to fulfill their commitments to the CAMS implementation
schedule. More than ever, the onus is on these officials to produce tangible results. We will
closely monitor this situation. NOAA and Department managers must, however, recognize the
need to:

C ensure continuous, top-level support of CAMS, including the administrative
  payments module;

C hire temporary employees for vacancies in the administrative payments units, to ensure future
  maximum flexibility;

C develop a plan for reducing administrative staff; and

C resolve all year 2000 administrative issues.

  2.   Many Commerce field imprest funds should be eliminated

Imprest funds are used to make small purchases of goods and services, provide employee travel
advances, and reimburse local office travel expenses. The ASCs currently monitor a total of 182
imprest funds. Given the availability of bankcards for small purchases and the American Express
travel card for travel advances, and the extensive amount of staff time it takes to adequately


                                                 42
Department of Commerce                                                             Final Report IPE-8569
Office of Inspector General                                                                  August 1997

monitor imprest funds, we believe that most of these funds should be eliminated. Requests for
reimbursement of local travel expenses could be submitted by voucher and handled by mail.

For every imprest fund, a fund cashier is responsible for making disbursements, the cashier’s
supervisor is responsible for the fund’s management, and the cognizant ASC finance division is
responsible for tracking quarterly cash verifications and conducting a year-end audit. Quarterly
cash verifications are done over the phone. Each ASC conducts the annual audits differently,
using one, or a combination of, telephone questionnaires, mail-in questionnaires, and on-site
visits, for each fund under its jurisdiction. CASC was able to conduct on-site audits for all local
funds and five off-site audits for funds $5,000 and above. MASC, due to limited travel money,
did little on-site verification but had the most rigorous off-site procedure, utilizing an extensive
mail-in questionnaire and telephone interview.

WASC has 76 imprest funds, followed by CASC with 57, MASC with 48, and EASC with 28.
During FY 1995, CASC eliminated 27 imprest funds by working aggressively to shut down funds
under $500. CASC did not have workload figures, but estimates significant savings in staff time.

The Department and NOAA need to aggressively reduce the number of imprest funds and
consolidate the oversight. In addition, a centralized methodology for conducting the quarterly
imprest fund audit and the year-end audit should be put into place and conducted by the remaining
financial management or budget office staff.

                                             ---------------

In its response to our draft report, NOAA stated that it will continue to look at ways to reduce
the number of funds in the future and noted that from 1992 to the present, the number of funds
has been reduced from 370 to 217 (41 percent). NOAA also stated that the additional travel costs
of conducting audits from a single location would be significantly more than the four locations.

While a 41 percent reduction in five years is acceptable, CASC, in one year alone, reduced the
number of its funds by 36 percent. In addition, CASC has closed 118 funds over several years
(accounting for 77 percent of the funds closed by NOAA). The reduction of imprest funds should
be a NOAA-wide effort.

Travel costs for lodging and per diem do not change based on outbound location. The only
difference will be the cost of the airline airfare. We estimate that the airline cost for four flights to
major ASC clients would be $353, whereas those same flights from Washington, D.C., area
airports would be $424, a difference of $71. Therefore, we reaffirm our recommendation to
reduce the number of imprest funds.



                                                   43
Department of Commerce                                                                  Final Report IPE-8569
Office of Inspector General                                                                       August 1997

E.    Systems Divisions: Major Improvements Possible

We found the ASC systems divisions to be performing vital tasks to sustain the information
technology needs of the four ASC operating divisions. This included providing support for the
local area network, telecommunications, software programming, and personal computer repair
needs of the ASCs.

In early 1996, however, NOAA’s Office of Administration decided to eliminate the position of
Designated Agency Representative (DAR) within each of the four ASCs and delegate this
responsibility to NOAA’s regional line offices. Although the DARs were serving a vital role, the
ASC site directors were faced with having to cut positions. The role of the DARs was to
implement the telecommunications responsibilities of FTS 200022 for the ASC and its customers.
The impact of this decision on NOAA was that the line offices had to designate several positions
(we heard estimates of 24 to 50 and more) to assume the collateral duty of managing their FTS
2000 responsibilities. Not only were clients of the ASCs unhappy at having to assume this task,
but the decision was costly with dozens of people having to spend precious travel and training
funds to become knowledgeable in this area.

Our first impression of the systems staffing at the ASCs was that they appeared to be large: the
four ASCs had a total of 29 FTE assigned to their systems divisions. EASC and CASC had 6
FTE each, MASC had 8 FTE, and WASC had 9 FTE. We cannot definitively state whether this
number is too large or too small without more closely examining the technical support needs of
the ASCs. However, this larger staffing level appeared to be due in part to the fact that the ASC
systems divisions were not always using the same software, and were sometimes doing redundant
tasks. According to sources at the ASCs, the need for different software applications resulted
from (1) the personal software preferences of the individual systems division managers at each site
and (2) the hiring of new analysts who were familiar with a different software. In addition, each
division has its own staff developing software applications for the same versions of software.
According to ASC sources, approximately 80 percent of software applications programming
could be standardized. Furthermore, we believe these standardized applications could be
developed by a consolidated team of systems analysts/software programmers, who could
concentrate on productivity-enhancing software modifications for the benefit of all ASCs, not just
their site.

We recommend that a core group of systems professionals be established at one ASC location.
This group’s sole objective would be to develop software applications for the benefit of all ASCs.
By consolidating this core group of systems staff, the ASCs could collectively reduce the number


        22
         The mandatory source for providing all domestic and long-distance voice, data, and video
telecommunications services.

                                                     44
Department of Commerce                                                                   Final Report IPE-8569
Office of Inspector General                                                                        August 1997

of FTEs they have committed to the systems function, yet still remain responsive to the
information technology needs of the individual sites. For extraordinary periods, when additional
specialized systems support is necessary, the ASCs could seek contract support.

Although there is no broad ratio to determine the appropriate numbers of end-users to PC help
desk staff and to Local Area Network administrators unless specific ASC user requirements are
known, there are two reports that suggest some ratios. Depending on the sophistication of end-
users, the PC help desk ratio may be as low as 1:30 or as high as 1:110.23 There is no set ratio for
LAN administration, but it is reported that centralizing LAN support may improve the staffing
ratios by a factor of three (e.g., from a ratio of 30:1 to 90:1).24

As the information and communications systems for supporting the administrative needs of the
Department’s field operations become more complex, the need for a systems support capability
will remain. Hence, we recognize that each ASC must have on-site technical support for its local
area networks and wide area networks, and for the configuration, repair, and upgrade of its PCS.
We recommend, however, that NOAA assess the level of technical support needed by these four
systems groups to determine potential opportunities for streamlining or reallocating resources.

                                                  ---------------

In its response to our draft report, NOAA said that it did not concur with our recommendation at
this time. NOAA’s systems group and the ASCs are preparing to support implementation of two
CAMS modules, the Core Financial system and the DOC Express system (an HR-related,
employee-driven, and self-directed benefits and personal information query line). These groups
are also preparing to replace their entire Local Area Network Operating Systems and server,
while also implementing World-Wide Web-based servers and an OFA/NOAA intranet.

NOAA stated that it will continue to need the services of all its systems staff as presently
structured and allocated to ensure completion of these high-priority projects. NOAA stated,
however, that it has recently initiated a study to evaluate the systems division workload and the
number of specialists needed to support it.

Based on conversations with NOAA officials, we accept NOAA’s decision to first complete the
upgrade of its operating systems and intranet installation before undertaking any restructuring of
the systems division. We are interested in NOAA’s study of its systems divisions, and request



        23
             In Search of the Elusive End-User Support Ratio, The Gartner Group, December 27, 1995.

        24
             Supporting the LAN: Centralized vs. Decentralized, The Gartner Group, February 22, 1996.

                                                        45
Department of Commerce                                                          Final Report IPE-8569
Office of Inspector General                                                               August 1997

that we be kept apprised of its progress and conclusions. (Also see our CAMS-related comments
on page 41.)

F.        Facilities and Logistics Divisions: Varied Functions Require Varied Approaches

The ASCs’ Facilities and Logistics Divisions (FLDs) handle an array of varied and important
administrative functions, including those that relate to facilities management, such as real
property, engineering, security, safety, and environmental compliance. Other FLD responsibilities
include personal property, travel and transportation, printing and publications, and shipping and
receiving. Upon analyzing these functions and responsibilities, we concluded that some were
handled well, others should be improved, and some should be handled elsewhere and differently.

     1.    Engineering functions should be streamlined

The engineering function was not an original component when the ASCs were first created. It
was only with the introduction of both the National Weather Service’s Next Generation Weather
Radar and its modernization program that a need was identified for an engineering group with the
capability to undertake facility planning and management. In late 1985, a NOAA study
recommended that engineering be a function of the ASCs and that resources be transferred to
them from the line offices. NWS later agreed to transfer only a limited number from its regional
engineering staffs, based on the following guidelines:

     C Create a centralized group of engineers as part of CASC, oriented toward nationwide
       programs.

     C Retain limited engineering resources within each NWS regional office to support its field
       activities.

     C Establish NOAA-wide regional engineering support within each ASC, with NWS having the
       greatest need for service.

The engineering function within FLD is responsible for addressing the various engineering needs
of Commerce’s field facilities. These needs encompass a wide range of tasks, from very large
projects, such as the construction of a new NOAA facility in Charleston, South Carolina, to
everyday requests, such as upgrading an air-conditioning system or a plumbing project.

Presently, three of the ASCs have four or five engineers in their FLDs. CASC is the exception,
with its Special Engineering Program Office (SEPO), consisting of nine engineers and three
support personnel. SEPO was created in 1987 to handle the volume of work brought on by the
NWS’s modernization program, which involved constructing new facilities at dozens of new
government-owned NWS sites. In early 1994, SEPO had a total of 20 staff member supporting

                                                  46
Department of Commerce                                                         Final Report IPE-8569
Office of Inspector General                                                              August 1997

both core engineering needs and NWS modernization projects. With the modernization projects
declining, SEPO now has 12 staff members. We believe that with the further phase-down of the
modernization program, SEPO should be downsized to the minimum level necessary to respond
to the future needs of its clients, more in conjunction with the other ASCs. Any major projects,
such as constructing a laboratory for NOAA’s National Marine Fisheries Service, can be handled
on a contract basis with a private architectural/engineering firm.

Some NOAA line office clients have suggested that each ASC will need to retain the smaller-sized
engineering staff because of the myriad of small tasks that require some engineering expertise. In
addition, with the completion of the modernization program and the acquisition of NOAA-owned
space for new weather office sites, NWS will continue to need engineering services. Previously,
NWS generally leased its space, and most engineering requirements were fulfilled by the landlord.
Now, with its own WFO facilities, NWS will need engineering services more to take care of the
everyday demands, e.g., structural and electrical, rather than massive construction programs.

                                           ---------------

In its response to our draft report, NOAA partially concurred with our recommendation. NOAA
stated that SEPO was abolished in October 1996 and the engineers were merged into CASC’s
new Acquisitions and Facilities Engineering Division. NOAA stated that the six core engineering
positions will continue to support CASC clients (similar to the engineering branches with the
other ASCs), and the remaining three engineers are assigned to specific clients (such as the
National Marine Fisheries Service, the Bureau of the Census, the National Weather Service, and
the National Ocean Service) and will be project funded. NOAA agreed with the recommendation
to retain approximately four engineers at the remaining ASCs, as dictated by workload.

We are pleased that SEPO was abolished, and its functions and staff were absorbed into a new
organization. Although the number of core engineer positions supporting CASC clients is slightly
greater than at the other ASCs, discussions with CASC officials indicate this level is justified by
the workload. The additional three engineer FTEs are funded by various projects: NOAA’s
Charleston Center (National Marine Fisheries Service and National Ocean Service); Weather
Forecast Office work associated with final phases of the NWS modernization; and project
advisory services for Census Bureau decennial census construction. The engineer on the
Charleston project is employed under a three-year term appointment; the other two are permanent
positions. CASC officials have stated that they intend to increase the number of term positions
for the project-funded work. We encourage CASC to continue seeking opportunities to build
such flexibility into their staffing decisions.




                                                 47
Department of Commerce                                                         Final Report IPE-8569
Office of Inspector General                                                              August 1997

   2. Management of personal property has major weaknesses

The ASCs are responsible for conducting physical inventories and maintaining the inventory
records of their customers. Since March 31, 1990, NOAA’s and the ASCs’ personal property
management system has been operated by the Department of Agriculture’s National Finance
Center. When CAMS becomes fully operational, it will include a module for tracking the personal
property inventory and should allow the Department to more effectively track the acquisition and
disposal of such property.

Generally speaking, personal property management is not being handled well at the Department;
the ASCs, for the most part, are no exception. Our observations at the ASCs further confirm why
personal property has been identified frequently as an area of material weakness in the
Department’s facilities management. We found that line managers frequently do not keep the
ASCs updated on property acquisitions and disposal, newly acquired property is often miscoded,
many items are transferred to other units without changes made to the property records, and items
are routinely acquired through bankcard transactions that bypass the normal procurement/
property control process.

In Boulder, the director of the National Telecommunications and Information Administration’s
Institute for Telecommunications Sciences takes very seriously his responsibility to account for
the laboratory’s equipment. As a result, the Institute has developed its own system that tracks
equipment on a weekly basis; however, this system is not reconciled with the Department’s
system.

Reportedly, much time and effort go toward tracking relatively minor personal property items:
NOAA property managers have said that items valued at less than $5,000 represent only 15
percent of the total value of the personal property inventory, yet they comprise 85 percent of the
number of items catalogued. Property managers complain that the process for tracking a $125
camera is just as involved as that for a $20,000 tractor. Further, these managers complain that
neither a computerized inventory system at the NFC in New Orleans nor a property manager at an
ASC can prevent a camera from being stolen from a field site. What these managers see as a
solution is for every manager, supervisor, and employee to be held accountable. Officials at field
sites can track such items off-line from the personal property inventory with off-the-shelf software
(apparently CASC has created an inventory system with available software). One ASC property
management specialist said that developing an off-line system would relieve him of unnecessary
paperwork and allow him to better spend his time visiting NOAA laboratories and doing surveys
of property utilization.

When it is finally implemented, CAMS should make it easier to improve property management at
Commerce field locations as well as at headquarters. As discussed earlier, CAMS is scheduled to
include a module for personal property that will enable offices to record personal property

                                                48
Department of Commerce                                                          Final Report IPE-8569
Office of Inspector General                                                               August 1997

acquisitions directly to their inventory. The CAMS implementation team, however, estimates the
personal property module is not likely to be operational until at least October 1997, and probably
not until October 1998. Until CAMS becomes operational, we recommend that NOAA work
with the ASCs to establish uniform guidelines of personal property management for individual line
offices and field units, develop or acquire standardized software for implementing an off-line
system, and institute a requirement of personal accountability for recording the acquisition or
transfer of personal property in order to achieve a more effective reconciliation of property
records.

                                           ---------------

NOAA concurred with our recommendation.

  3.   Safety function needs to be addressed

Each ASC has a person assigned responsibility as the safety officer, often as a collateral duty. In a
few instances, the person in this position may also be an occupational health (industrial hygienist)
specialist. The safety officer is expected to conduct safety training courses for other ASC
employees and client agencies, and follows up on requests for assistance in safety-related matters.
Safety officers are also responsible for inspecting equipment. Additionally, this person is expected
to work with the engineering staff in laying out new space with the proper safety devices (smoke
detector/automatic sprinklers), as required.

During our review, we were told that the safety program needed more visibility and coordination
within the ASCs. An example was when fire sprinklers were cut from the project budget for a
building renovation, but new sidewalks were included. Although this action was legal (federal
buildings are exempt from local fire codes), it does suggest that the cost for safety devices from
an ASC standpoint may not always be affordable. Others said that staffing of the safety function
at some locations by one person was difficult to manage if they were absent, and suggested that
each ASC with only one safety officer should ensure that they have an alternate safety officer with
the proper training to handle the workload in the primary officer’s absence. The safety unit within
MASC’s FLD, for example, has an industrial hygienist, fire protection engineer, and safety
technician, largely because of the significant amount of laboratory space at the Boulder facility.
We recommend NOAA review the safety needs at each ASC to ensure that they have proper staff
coverage. We believe the ASC directors and FLD chiefs should more fully incorporate safety
considerations into ASC operations and responsibilities, and more completely evaluate what may
seem to be competing interests and/or priorities when constructing or modifying facilities.

                                           ---------------

NOAA concurred with our recommendation.

                                                 49
Department of Commerce                                                          Final Report IPE-8569
Office of Inspector General                                                               August 1997

  4.   Security function should be better managed

The security function is carried out by a Regional Security Officer (RSO) assigned to each ASC.
The RSOs are responsible for the personnel security, computer security, and physical security of
the ASCs and their regional Commerce clients. The RSOs also are responsible for processing the
applications for security clearances, collaborating with the engineering and real property branches
on the physical security of Commerce field offices, conducting training programs for Commerce
field units on security issues, and participating with Department security officials during security
evaluations of Commerce field units. The RSOs generally report to the FLD chief, except for the
MASC RSO, who reports to the MASC site director.

Security matters in Commerce are handled at many different levels. While the RSOs handle the
security needs of all Commerce clients in their region, as described above, NOAA’s security staff,
at its Washington area headquarters, performs the same functions for NOAA headquarters
employees and facilities as well as consulting with the ASCs on security issues and participating in
the compliance reviews conducted by the Department’s security unit. The Department’s Office of
Security has department-wide responsibility for: (1) establishing policies and procedures for
personnel security, classified documents and information; (2) protecting the Secretary and other
officials and property; (3) providing security guidance to departmental offices and operating units;
and (4) conducting compliance reviews of the security programs used by departmental operating
units. While the Office of Security is also responsible for the handling of classified documents and
information, they share responsibility for information security with the Department’s Office of
Information Planning and Review. The Office of Security does hold quarterly meetings to discuss
security issues with their counterparts. Although security officials from bureau headquarters units
attend, RSOs have not attended for some time due to the lack of travel funds.

Security issues have become an increasingly important concern government wide. In fact, the
Department has recently established the Office of Security and Administrative Services, thereby
merging the security and facilities oversight responsibilities to better coordinate these related
functions. Because of the need to elevate security issues and concerns to senior managers, both in
the field and in Washington, we believe that the security function should be managed directly by
the ASC site directors, and closely coordinated with the Department’s Office of Security. In this
arrangement, the RSO would report directly to the ASC director—and continue to work
collaboratively with the other ASC managers and staff on personnel, physical, and computer
security matters—while also coordinating his/her activities with the Department’s security office.
Under this reporting relationship, the region’s security offices would be more fully incorporated
into the ASC’s operations, while also addressing overall departmental security goals and
objectives.

According to ASC security officials, the lack of resources has frequently been a constraint in
carrying out their responsibilities. First, the RSOs lack the resources necessary to properly carry

                                                 50
Department of Commerce                                                         Final Report IPE-8569
Office of Inspector General                                                              August 1997

out their responsibilities, such as evaluating security measures at field sites, conducting security
awareness training, and attending training courses to update their knowledge of security
issues/threats. The RSOs are expected to conduct a site survey of each field location every two
years. Generally, this has not been done because of a lack of travel funds, however, the
experience of RSOs is uneven across the ASCs. One RSO stated that NOAA balks at paying for
these site surveys. The RSO says the only way she can get out to do the surveys is because she
now reports to FLD’s Real Property Branch, and can join in site surveys with real property
specialists. During the one or two trips she makes annually to conduct site surveys, she is able to
review about 12 to 20 different offices (of approximately 50+ in the region). Another RSO
reported that whereas he had recently been limited to conducting one or two training sessions
annually (compared to the five or six he was able to conduct in prior years), he had resumed
visiting field sites more often. The advantage of conducting security training away from the ASCs
enables the RSOs to coincidentally conduct site surveys during those visits. A third example of
resource constraints was that the RSOs no longer have adequate funds to attend quarterly
meetings with the Department’s Office of Security and the bureaus’ headquarters security
officials.

Although there have not been frequent examples, the different layers of security officials within
Commerce may cause problems in coordinating certain security matters. One example is when an
RSO had initiated the security clearance process for an ITA official, while ITA headquarters
personnel simultaneously began processing the employee for a higher-level security clearance.
Because of poor coordination, $5,000 was wasted on a needless background investigation.

During our review, Department security officials highlighted other deficiencies in the ASC
security program. They believed the ASCs (and the Department as a whole) were woefully
inadequate in the area of information security. In some offices, electronic mail and access to the
Internet have left the Department vulnerable to unauthorized access to sensitive information
through personal computers and local area networks. One RSO found a BXA enforcement office
with its computer system linked to the Internet through a modem. The office had not recognized
that it handled sensitive information that should be protected through a removable hard disk
storage device.

Department security officials also suggested that the effectiveness of RSOs varied by ASC,
primarily because of management support. Although the Department’s security officials
complimented the security officer at MASC for attempting to do a good job, they believed that
the RSO was fighting an uphill battle, due to the “open community” attitude toward physical and
electronic security at the Boulder laboratories. This attitude was believed to have led to tens of
thousands of dollars worth of thefts of computers and computer-related equipment at the
Environmental Research Laboratory facilities on the University of Colorado’s Boulder campus.
NOAA has taken action to improve ERL’s security by contracting for additional guards, installing


                                                51
Department of Commerce                                                         Final Report IPE-8569
Office of Inspector General                                                              August 1997

surveillance cameras, installing keypads for after-hours building access, and better monitoring the
issuance of door keys.

Security is an important task that benefits from having individuals assigned to field locations
where they can be in contact with the ASC managers and regional customers to better understand
the local security environment and issues. Security responsibilities at the ASCs are also such that
they require a person who is trained in security matters and procedures, and thus would be less
effective if assigned as a collateral duty at the ASC or conducted exclusively from Washington,
D.C., headquarters.

We also believe that more needs to be done in the way of security awareness by the individual
bureaus and the Department. More frequent reminders need to be disseminated through
electronic mail and Commerce People on proper security procedures. This includes disseminating
information about security violations and the penalties assessed, and incidents where security
lapses occurred, to serve as a reminder and deterrent to other Commerce employees.

                                           ---------------

In its response to our draft report, NOAA did not concur with our recommendation to alter the
reporting relationship for the RSOs. NOAA states that within the Facilities and Logistics
Division, the RSO is able to closely coordinate with the other facilities functions to complete
various service delivery and compliance tasks. The RSO routinely works with the other
specialists in real estate, occupational safety and health, engineering, and environmental
compliance.

Based on subsequent conversations with ASC security officials, we learned that the situation for
RSOs has only slightly improved. While it is true that CASC’s RSO benefitted from the
availability of funding to visit field sites, other RSOs have not been as fortunate. Part of the
problem is due to the fact that planning for some of the construction/engineering projects have not
factored in resources needed for a security review. The concerns regarding the reporting
relationship of RSOs involve their placement in the organization and how effectively they can
carry out their job. If the RSO is placed within a branch of FLD, such as is the case in WASC,
CASC, and EASC, the RSO has difficulty in addressing issues that affect organizations outside
that branch. An RSO gave the example of trying to explain to a real property branch chief why an
ASC client’s request for priority processing of a request for an identification badge was
important. Earlier this year, MASC’s RSO, who previously reported to the real property branch
chief, was reassigned to report to the FLD chief, which has helped facilitate the RSO’s work.
Generally, RSOs believe they should be able to interact freely across an ASC’s divisional lines,
which suggests that they should report directly to the ASC director. Presently none do. The next
best scenario for RSOs would be to report to the FLD chief. Only one does (MASC). The worst
case would be to have RSOs reporting to a branch chief in FLD. Three of them now do.

                                                 52
Department of Commerce                                                           Final Report IPE-8569
Office of Inspector General                                                                August 1997

We are not convinced by NOAA’s argument that RSOs belong in the Facilities and Logistics
Division of the ASCs. Quite the contrary, their work spans across the functional areas of the
ASC, thus underscoring the need for RSOs to report directly to the ASC director.

  5.   MASC shipping and receiving responsibilities should be outsourced

FLD’s shipping and receiving function involves the shipping of government equipment, field
survey instruments, exhibits, and furniture; and the shipping of employees’ household goods. The
shipping and receiving section of the MASC in Boulder differs from its counterparts at other
ASCs in that it ships and receives a significant volume of scientific equipment for NOAA’s
Environmental Research Laboratories, NIST’s Boulder laboratory, and NTIA’s Institute for
Telecommunications Sciences.

We believe there are opportunities for consolidating some shipping and receiving tasks. The job
of facilitating the shipment of household goods associated with employees’ permanent changes of
station is closely linked with the ASC’s finance division (for payment of shipping invoices).
Although we are only aware of a draft proposal by NOAA to merge this function with the finance
divisions, it may result in eliminating a separation of duties and thus pose a conflict. Nonetheless,
we believe this work could be consolidated at one ASC, and continue to be coordinated with the
NOAA headquarters finance office.

The shipping and receiving unit at MASC does the bulk of its work for the NIST, NOAA, and
NTIA clients located in Boulder. We have been told, however, that the unit really works only
when the delivery trucks arrive, which is twice daily, leaving it relatively idle the rest of the day.
The MASC FLD chief said this idleness has led to arguments among the workers and a negative
work environment. We believe NOAA should evaluate the alternative of contracting out for these
services.

The job of managing the shipment of government equipment could be consolidated at one site and
handled electronically among the four ASCs. We also believe this task could be done under
contract. Furthermore, because MASC is responsible for nearly 55 percent of the shipments
among the ASCs, they should be designated the responsible unit for managing this task for all
ASCs.

                                            ---------------

In its response to our draft report, NOAA did not concur with our recommendations. NOAA
stated that MASC’s shipping and receiving function is significantly different from the
Transportation and Traffic Management function required elsewhere in NOAA. The ASCs
provide specialized shipping and receiving support based on client demands. MASC manages 55


                                                  53
Department of Commerce                                                         Final Report IPE-8569
Office of Inspector General                                                              August 1997

percent of the ASC shipments, although they manage less than one-third of the total NOAA
shipments, the balance of which is handled by NOAA headquarters.

Based on subsequent conversations with NOAA and ASC officials, we believe that NOAA should
retain the shipping and receiving function at the three other ASCs, but should undertake an OMB
Circular A-76 study to determine the likelihood of a more cost-effective option to this
commercially related activity at MASC.

G.     Major Changes Needed in MASC Site-Specific Functions

MASC has two site-specific functions in need of change: (1) guard and custodial services, and (2)
a clerical pool.


  1.    Guard and custodial services should be outsourced

MASC is unusual in having Commerce employees provide both guard force and custodial services
for the Boulder laboratories. We believe both groups should be examined for contracting
opportunities, in the interest of preserving FTEs for programmatic priorities, and seeking more
cost-effective support services.

The guard force employed by MASC performs services for all of Commerce’s Boulder facilities:
in the Commerce buildings at MASC, and security on the grounds, parking lots, and perimeter.
The FLD chief stated that, although in the past it has been difficult getting FTE relief to hire
additional guards, NOAA has now resolved its FTE ceiling problem. However, we believe that
contract guard services provide more flexibility, and could cost less. The experience of the
Department (at the Herbert C. Hoover Building), the Patent and Trademark Office (in Rosslyn,
Virginia), and NOAA’s headquarters buildings (in Silver Spring, Maryland) with contract guard
service has been satisfactory and could work well in Boulder.

MASC is also responsible for the custodial service at the Boulder facility. Although we know of
no complaints about the custodial service, it is an activity that could be done under contract. The
FLD chief stated that it might be less costly to do the work under contract. We believe that
NOAA should evaluate the cost effectiveness of contracting out the custodial services at MASC.

                                           ---------------

In its response to our draft report, NOAA not only stated that these functions are being
transferred back to NIST, but that NIST intends to continue to provide these services through a
federal employee workforce.


                                                 54
Department of Commerce                                                         Final Report IPE-8569
Office of Inspector General                                                              August 1997

According to a senior NOAA official, NIST several years earlier had responsibility for the guard
and custodial services. When we spoke with administrative officials at NIST headquarters in
Gaithersburg, Maryland, they were emphatic as to the need for Boulder security guards to be
federal employees to allow them certain authority, such as arrest powers. Furthermore, NIST
maintained that a federal guard service minimized employee turnover, enabling the guards to
become more familiar with the employees working at a particular facility.

We dispute the need for a Commerce security force to have arrest powers. As for NIST’s
contention that a contract security force had higher employee turnover and thus was less familiar
with the workers at an installation, our conversations with senior officials and managers at three
other Commerce locations failed to support that view.

Absent any justification or explanation by NOAA (or NIST), we question the merits of
transferring responsibility for these services to NIST. We request NOAA officials to clearly
justify the basis on which this decision was made, and to furnish us with comparative cost
estimates of contracting out for these services versus transferring responsibility back to NIST.

  2.   Clerical pool should be eliminated

MASC is unique in having a clerical pool of 14 employees (GS-3/4 office automation clerks) who
are hired under a mixed-tour appointment and assigned to Boulder units on a reimbursable basis.
These clerks are actually part of MASC’s human resources division as an administrative
convenience. They are used to fill clerical gaps in offices and laboratories during peak periods or
extended absences (vacations, maternity/family leave). During its heyday several years ago, the
clerical pool had up to 48 employees.

MASC’s human resources chief says that the clerical pool has become a costly burden. We agree.
The use of the pool by MASC’s Boulder clients has lessened, and it is no longer self-supporting.
FTE ceilings are now an issue and, although the labs seeking clerical help do not have to bear this
burden (they only pay salary, benefits, and an overhead charge), MASC is saddled with the FTE
burden to keep the clerical pool operating. MASC must pay the benefits for these part-time
workers and bear the FTE burden while not receiving the revenue to make the program self-
supporting. The HR chief believes eliminating the pool is a possibility. He says the labs at
Boulder might object to eliminating the pool, but they do not have an FTE problem. Without the
clerical pool, the labs could still hire employees on a part-time, as-needed, basis.

                                           ---------------

NOAA concurred with our recommendation.



                                                 55
Department of Commerce                                                         Final Report IPE-8569
Office of Inspector General                                                              August 1997

H.    ASC Deputy Director Positions Should Be Eliminated

Each ASC directorate has positions for a director, deputy director, budget officer, and secretary.
Based on the level of workload and lack of need for a deputy director, we see little need to retain
this position. In fact, the Eastern Administrative Support Center has been operating without a
deputy director since July 1990. In the director’s absence, one of the EASC division directors
serves in an acting capacity, with no known ill effects or adverse impact on their operations.

We believe, therefore, that the ASCs could manage their operations without a deputy director.
One of the division directors could be called on to serve in an acting capacity in the ASC
Director’s absence. ASC staff members with whom we discussed this proposal agreed with us, as
did one of the deputy directors. NOAA senior management eliminated these positions in
December 1996.
                                            ---------------

In its response to our draft report, NOAA, concurred with our recommendation. In fact, as we
note above, NOAA eliminated the positions following the completion of our field work.

I.    Franchising Initiatives Should Not Be Expanded

As an outgrowth of the National Performance Review, the Congress passed the Government
Management Reform Act of 1994, authorizing the establishment of six Franchise Fund Pilot
Programs within selected federal agencies. Each of the six agencies was authorized to operate as
a “business” and “sell” their common administrative and financial services to other federal
agencies on a reimbursable basis. The purpose of franchise funds is to promote government-wide
competition among common administrative service providers leading, at least in theory, to a more
competitive environment, resulting in lower costs, higher quality, and more timely services. It is
presumed that the most competitive, business-like agencies would successfully compete and win
the business of their customer agencies, thereby providing needed administrative support to them
at low cost and with superior service. The customer agency would reimburse the provider agency
for its services.




                                                56
Department of Commerce                                                         Final Report IPE-8569
Office of Inspector General                                                              August 1997

A franchise fund is a revolving fund, similar to a working capital fund, that operates by
accumulating all costs (including overhead) associated with the operation of one or more
business-like enterprises, collecting payments by customers for services rendered, depreciating its
capital assets, and providing for a limited amount of retained earnings. The franchisee may be any
unit that offers common administrative support services, and conducts its businesses on a
reimbursable basis in a manner that promotes competition, but it must be financially self-sustaining
and allow the customer the choice of selecting the services that best meet its needs.

As one of the six agencies which sought and was approved to have a franchise fund, Commerce
has proposed to franchise both the ASCs and its computer center in Springfield, Virginia. By
interagency agreement, each ASC would be able to market and provide common and site-specific
services to Commerce field units as well as to other federal agencies. At the time of our review,
two ASCs were already offering limited procurement services on a franchise basis to other
agencies. EASC was performing procurement services for the U.S. Navy, handling contracts
valued at approximately $10 million. WASC also was franchising its procurement services for the
Navy, estimated at $20 million over the next three years. Discussions were also underway to
significantly expand franchise activities at these two centers and the other ASCs. Despite
successful franchising efforts elsewhere in the federal government, the OIG has serious concerns
about the Department’s proposal to embark on an expanded franchising effort.

  1.   Franchise-like service providers have increased in number

In recent years there has been considerable growth of cross-servicing within the federal
government. Other federal organizations, such as the Departments of Agriculture and Veterans
Affairs, have demonstrated that business-like principles used by the private sector can work within
the federal government and enable it to work better and cost less. The Cooperative
Administrative Support Unit (CASU) program has been a catalyst for such cross-cutting service
support between agencies. The CASU is a government program which provides shared
administrative services at a greatly reduced cost. The most visible CASU example is the payroll
record-keeping and accounting operation run by the Agriculture Department’s National Finance
Center in New Orleans. The NFC services more than 100 federal agencies. Other active cross-
servicing programs can be found at the Department of the Treasury Financial Management
Service’s Center for Applied Management, the Public Health Service’s Federal Occupational
Health Services organization, and the General Services Administration’s Federal Computer
Acquisition Center.




                                                57
Department of Commerce                                                         Final Report IPE-8569
Office of Inspector General                                                              August 1997

  2.   Franchising offers both potential benefits and pitfalls for NOAA and the ASCs

Given the resource constraints felt by NOAA and the ASCs, franchising is seen as one way to
generate additional revenue to support systems upgrades and other improvements, as well as an
opportunity to streamline and explore more cost-effective ways of delivering administrative
services. However, the franchising concept also poses many potential problems and obstacles that
could hamper its success in the Commerce Department.

Proponents of franchising claim that it can provide a number of benefits to the ASCs, not only as
service providers, but also as service recipients. For example, the ASCs would operate on a full-
cost recovery basis through direct customer billings. By sharing processes through cross-
servicing-type arrangements, the ASCs would have a broader customer base to spread overhead
costs and share in research and development costs. Likewise, cost benefits could potentially
accrue to all customers through reduced unit costs resulting from increased volume. At the same
time, the ASCs could retain up to four percent of their earnings to fund capital improvements and
other investments to enhance staff, upgrade systems and facilities, and cover unexpected
workload reductions. The customer agency could theoretically benefit by obtaining higher quality
services while reducing in-house staff and expenditures by purchasing services from another
agency competitively.

However, there is much uncertainty associated with any plans to expand the ASCs’ franchising
initiative: (1) the Department needs to address our concerns about expanding administrative
services through franchising while it has trouble delivering services to Commerce bureaus; and (2)
the antiquated state of many departmental systems and the need to focus on implementing CAMS;
and (3) the ASC franchise business plan, which we have not reviewed, is still in draft and awaiting
approval by the Department’s Franchise Board (consisting of Department, NOAA, and ASC
senior officials). Both the Department and the ASCs already have difficulty delivering
administrative services in a cost-effective manner and, as this report highlights, many changes are
needed to streamline and improve ASC services. Similarly, antiquated accounting and financial
systems would make effective franchise operations difficult. Although we have not been furnished
a copy of the draft plan, conversations with cognizant officials indicate that it calls for the ASCs
to offer their franchise business services to all agencies, both within and outside the Department.




                                                58
Department of Commerce                                                           Final Report IPE-8569
Office of Inspector General                                                                August 1997

Given the problems and uncertainties discussed in this report, we cannot endorse such a move to
expand Commerce’s franchising and caution the Department to carefully weigh the perceived
benefits and costs of franchising before approving additional franchise efforts. A decision to
expand franchising should be a calculated business decision that involves an in-depth analysis of
the market, costs, and business competitors. ASCs should not be allowed to freely solicit new
customers in order to keep their staff and provide revenue to keep operations going.

We believe it is essential that the Department and NOAA address many of the problems and issues
outlined in this report before sanctioning expansion of franchising by the ASCs. Before
proceeding further on the ASC franchise plan, departmental, NOAA, and ASC officials need to
address a number of questions: (1) Should NOAA be encouraging expanded use of its outdated
computer systems and adding personnel to support non-Commerce bureaus? (2) How will the
ASCs fare under franchising if the Commerce bureaus can come and go from the ASCs at will?
(3) Will the new franchise business divert the ASCs’ attention and services away from improving
their support of Commerce agencies? (4) How can Commerce and the ASCs compete with other
potential providers of service?

Other issues that need to be addressed are the eventual number of service delivery points, the
types of services to be centralized or outsourced, and the impact of the transition to full electronic
support (CAMS and other electronic initiatives) on the agency and its customers. There is also
the more fundamental concern of how aggressively the ASCs should be pursuing and working for
external clients when they still need to do a better job on their primary responsibilities to
efficiently and effectively serve Commerce agencies.

When increasing staff to accommodate current franchising work, the ASCs should only hire new
employees under term appointments. Hiring employees under full-time permanent appointments
may eventually create budget and resource problems for the ASCs, especially if franchisees are
not allowed to retain earnings to cover temporary lulls in business volume. In addition to not
beginning any new franchising, any current franchising efforts should be closely monitored by
NOAA and the Department to ensure that they can maintain or improve the level of administrative
services to both internal and external customers, and to ensure that the franchise agency is not
tempted to circumvent government regulations and procedures to satisfy its customers.




                                                 59
Department of Commerce                                                            Final Report IPE-8569
Office of Inspector General                                                                 August 1997

For these reasons, we urge the Department to exercise caution in expanding its franchising
initiatives. Given the shortage of staff at the ASCs, the major changes needed to improve ASC
operations, the possibility of overextending departmental resources to support other non-
Commerce bureaus, and the uncertainty of staffing and systems support, we believe that further
franchising activities and initiatives at the ASCs should be curtailed until NOAA and the
Department (1) adequately address the issues and concerns discussed in this report, and (2)
demonstrate, through appropriate cost-benefit analyses, that the advantages clearly outweigh the
disadvantages of allowing the ASCs to pursue franchising activities at this time.

                                             ---------------

In its response to our draft report, the Department (speaking on its own behalf and NOAA’s)
stated that they were in full support of the ASCs’ endeavors to operate as a franchise.
Furthermore, the Department stated that the establishment of a franchise board would satisfy our
recommendation that the Department create an ASC governing board to develop a budget
process and set service levels for the ASC customer agencies.

As we stated in this report, and in testimony before Congress, both the Department and the ASCs
have difficulty delivering administrative services to Commerce bureaus in a cost-effective manner.
Our review of the ASCs identified many changes needed to streamline and improve overall ASC
and departmental administrative services, such as improved procurement oversight, outsourcing
administrative payments, and commercial-like activities that should be contracted or consolidated.
Yet, based on its draft franchise business plan, NOAA plans for the ASCs, in their present
structure, to offer all of their administrative support functions as franchise business services to all
federal agencies, both within and outside Commerce. Furthermore, the Department’s and
NOAA’s antiquated accounting and financial systems would make efficient and effective franchise
operations difficult.

We question whether the Department and NOAA should undertake any expansion to ASC
franchising until they address our concerns regarding the ASCs. Any decision to expand the
franchise program should be based on the results of an in-depth analysis of the market, costs, and
competition. We question whether the ASCs can—or should—compete with other well-
established administrative service providers, such as HHS, VA, and USDA. An analysis of
franchising should include such questions as:

C Should NOAA be encouraging expanded use of its outdated computer systems and adding
  personnel to support non-Commerce bureaus before it can first demonstrate in-house
  efficiency and effectiveness?

C Will the new franchise efforts divert the ASCs’ and Department’s attention and services away
  from improving their support of Commerce agencies?

                                                   60
Department of Commerce                                                       Final Report IPE-8569
Office of Inspector General                                                            August 1997

C Are there sufficient oversight mechanisms to ensure that rules and/or regulations will not be
  compromised to satisfy the customer?

C Can Commerce and the ASCs compete with other available service providers?

We reiterate our recommendation that the Department curtail plans to expand franchising at the
ASCs until it can demonstrate that such franchising represents a sound business decision for
Commerce.




                                               61
Department of Commerce                                                           Final Report IPE-8569
Office of Inspector General                                                                August 1997

                                     RECOMMENDATIONS

We recommend that the Department’s Acting Chief Financial Officer and Assistant
Secretary for Administration:

1.    Ensure that the Department fulfills its assigned policy and oversight responsibilities in
      helping the ASCs to be as efficient and effective as possible. In this regard, the ASA/CFO
      should create an ASC governing board, consisting of representatives from the Department,
      NOAA, and the client agencies to:

      a. Develop a funding or budget process that provides sufficient resources to sustain
         effective administrative support services to the Department’s field units.

      b. Work with NOAA and ASC officials to determine a more equitable and transparent
         process for setting service levels for client agencies, and to develop an updated billing
         methodology.

2.    Ensure that the development and implementation of CAMS receive high priority in the
      necessary commitment of resources and departmental oversight.

3.    Not expand Commerce’s ASC franchising initiatives until NOAA and the Department (1)
      adequately address the issues and concerns discussed in this report, and (2) demonstrate,
      through appropriate cost-benefit analyses, that the advantages clearly outweigh the
      disadvantages of allowing the ASCs to pursue franchising activities at this time.

4.    Initiate a study to examine—from a Commerce-wide perspective—the costs and benefits of
      allowing the Bureau of the Census and the International Trade Administration to withdraw
      from the ASC network. The study should include an assessment of Census’ and ITA’s
      administrative staffs. Prevent ITA from terminating its support ties with the ASCs until such
      a study is completed.

We recommend that NOAA’s Deputy Under Secretary see that the following actions are
taken:

5.    Determine NOAA’s administrative staffing and resource needs based on an assessment of
      when individual CAMS modules will become operational. This assessment should identify
      the impact of CAMS on administrative staffing for all administrative processes and
      procedures. Such an evaluation must include the staffing needs for both administrative
      services and necessary oversight functions. NOAA’s Office of Administration and the ASCs
      should:


                                                  62
Department of Commerce                                                           Final Report IPE-8569
Office of Inspector General                                                                August 1997

      C   ensure continuous, top-level support;
      C   implement an administrative hiring freeze, except for temporary positions;
      C   develop a plan for reductions in administrative staff; and
      C   resolve all year 2000 administrative issues.

6.    Aggressively implement plans to consolidate all non-“high touch” personnel functions (such
      as personnel and payroll processing) at the Central Administrative Support Center, or
      another appropriate ASC.

7.    Maintain ASC human resources advisory services only for “high-touch” areas, such as
      specialized staffing and recruiting, awards, counseling, pay and leave administration, special
      position classification, employee relations, labor management relations, and performance
      management; and aggressively implement automation initiatives to achieve greater
      efficiencies in these areas.

8.    Link procurement staffing levels to the workload demand. Appropriate data should be
      collected, and measures developed and updated periodically to determine the correct staff
      composition and size.

9.     Eliminate purchase card oversight at the ASCs, and consolidate and strengthen this
     responsibility at the Commerce Bankcard Center in Kansas City with the addition of
     sufficient staff and systems capability, as necessary, to efficiently handle the workload. The
     Bankcard Center should periodically broadcast changes to purchase card procurement
     procedures and regulations.

10. For the four ASC finance divisions and NOAA’s Finance Services Division, consolidate
    oversight responsibilities for the imprest funds at one location, and reduce the number of
    such funds.

11. In the Facilities and Logistics Divisions:

      a. Develop and disseminate software information and guidance to ASCs and Commerce
         field units for a standardized off-line property management system for sensitive items and
         items valued at less than $2,500; and develop a standardized policy on inventory capture
         of personal property acquired through bankcard transactions.

      b. Ensure that each ASC has a properly trained safety officer for backup purposes; and
         ensure that both the FLD chief and the director of each ASC give full consideration to
         current or prospective safety issues.



                                                  63
Department of Commerce                                                          Final Report IPE-8569
Office of Inspector General                                                               August 1997

       c. Have each ASC Regional Security Officer report directly to the ASC site director, and
          closely coordinate with the Department’s Office of Security to ensure better
          coordination and communication of security priorities.

       d. Conduct an A-76 study to determine the most cost-effective option for the shipping and
          receiving unit at MASC.

12.    At MASC:

       a. Justify the decision to transfer responsibility for guard and custodial services to NIST,
          and provide a comparative cost analysis of contracting out versus transferring
          responsibility to NIST.

       b. Eliminate the clerical pool.

13.    Proceed with current plan to eliminate the deputy director positions at all ASCs.

14.    Curtail any further expansion of the ASC franchise program. For current franchising
       commitments, ensure that the ASCs (1) hire only temporary, term, or contract employees
       to perform franchising work, (2) implement a compliance mechanism for franchising
       activities to ensure that rules and/or regulations are not compromised to satisfy the
       customer.




                                                 64
Department of Commerce                                                        Final Report IPE-8569
Office of Inspector General                                                             August 1997

                        Appendix A: Some ASC Site-Specific Observations

Eastern Administrative Support Center (EASC), Norfolk, Virginia

FY 1996                         Core Site-Specific Non-Core       Total
Number of Staff (FTE)           88.9      0          16.6         105.5
Budget (in thousands)         $5,323.9    0        $1,900.0      $7,223.9

                                      Percent                      Percent
                          NOAA        of Total        Non-NOAA     of Total     Total
Number of Clients         2,154        85.17             375        14.83       2,529

Regional Area:          Serves 191 locations in Connecticut, Delaware, Maine, Maryland,
                        Massachusetts, New Hampshire, New Jersey, New York, North Carolina,
                        Ohio, Pennsylvania, Puerto Rico, Rhode Island, South Carolina, Vermont,
                        Virginia, West Virginia, and the U.S. Virgin Islands.

A. Description of core, non-core, and site-specific activities:
   - The human resources division maintains a nationwide registry for staffing of
     meteorologists.
   - Procurement staff assignments are organized by customer, thereby fostering staff familiarity
     with customers’ needs and operations.
   - After reductions-in-force, the finance division was reorganized into self-directed teams,
     according to payment system (e.g., NPS and DPS). This reorganization enabled the
     division to manage the workload more flexibly while also accommodating staff schedules.

B. Characteristics:
   - EASC was a leader in establishing a franchise program with its handling of procurement
     work for the U.S. Navy. EASC is reluctant to pursue further contracting work for the
     Navy unless it can get NOAA commitments on FTE relief. The EASC director and staff
     have prepared a business plan to help them in expanding their franchise activity; the
     Director has also worked on developing the Department’s overall franchising initiative.
   - Draft recommendations of the NOAA Reinvention Study Group proposed closing EASC,
     due to its close proximity to Washington, D.C., and having NOAA headquarters units in
     Silver Spring and Germantown, Maryland, assume the EASC client workload. No action
     has been taken to date on the draft report recommendations.
   - EASC is located in close proximity to the Atlantic Marine Center, a major facility
     supporting the NOAA Fleet, and other NOAA operations.




                                                 65
Department of Commerce                                                         Final Report IPE-8569
Office of Inspector General                                                              August 1997

Central Administrative Support Center (CASC), Kansas City, Missouri

FY 1996                        Core Site-Specific Non-Core          Total
Number of Staff (FTE)          83.2      11.8       32.2            127.3
Budget (in thousands)         $5,173.9 $618.9     $4,334.7         $10,127.5

                                      Percent                       Percent
                          NOAA        of Total         Non-NOAA     of Total      Total
Number of Clients         2,128        82.07              465        17.93        2,593

Regional Area:          Serves 183 locations in Alabama, Arkansas, Florida, Georgia, Illinois,
                        Indiana, Iowa, Kentucky, Louisiana, Michigan, Minnesota, Mississippi,
                        Missouri, Tennessee, and Wisconsin.

A. Description of core, non-core, and site-specific activities:
   - The procurement division is organized by customer.
   - The finance division is also organized by client, and its focus is on having staff
     redundancy—a backup person for each job.
   - The center also has a unit within its travel and transportation branch that arranges for
     employees’ permanent change of station moves, which they want to designate as a “center
     of excellence.”

B. Characteristics:
   - With the position of human resources director vacant, the CASC site director has chosen
     to rotate the HR branch chiefs through the HR director’s slot on a temporary basis to
     evaluate their managerial skills and style.
   - CASC has the advantage of being collocated with the National Weather Service’s Central
     Regional Office.
   - Although located off-site from CASC, both the Commerce Bankcard Center (employing
     three Commerce FTEs) and the National Logistics Supply Center are managed by this
     ASC.
   - CASC has a unique billing system for some of its reimbursable work, which does not
     include overhead.
   - CASC has a history of reimbursable activities, with both the NLSC and CBC having some
     non-Commerce clients.




                                                  66
Department of Commerce                                                        Final Report IPE-8569
Office of Inspector General                                                             August 1997

Mountain Administrative Support Center (MASC), Boulder, Colorado

FY 1996                        Core Site-Specific Non-Core        Total
Number of Staff (FTE)          90.3      43.7       38.5          172.5
Budget (in thousands)         $5,557.3 $3,000.6   $4,336.0       $12,893.9

                                      Percent                      Percent
                          NOAA        of Total        Non-NOAA     of Total       Total
Number of Clients         1,817        71.45             726        28.55         2,543

Regional Area:          Serves 141 locations in Colorado, Kansas, Nebraska, New Mexico, North
                        Dakota, Oklahoma, South Dakota, Texas, and Wyoming.

A. Description of core, non-core, and site-specific activities:
   - The procurement division is organized by contracting and small purchases. It also manages
     grants and cooperative agreements.
   - The finance division is organized by NPS, DPS, and travel.
   - The facilities and logistics division shares site management responsibilities for the Boulder
     campus with NIST.

B. Characteristics:
   - The nature of the work is oriented toward scientific research by the Boulder labs.
   - MASC manages the Denver Combined Administrative Support Unit.
   - Foreign guest researchers visiting the Boulder campus place a security clearance workload
     burden on the regional security officer.
   - MASC has a large number of federal employee union members, making employee relations
     and management more adversarial.
   - MASC has the highest percentage of non-NOAA clients among the ASCs. The NOAA
     Reinvention Study Group’s draft report recommended closing MASC and sending the
     client workload to CASC.
   - Both MASC and NIST share in the facilities management responsibilities for the Boulder
     campus, leading to confusion and possible overlap or duplication of efforts.
   - The information resources division includes the library and the printing and duplication
     unit. Although the publications unit is a core ASC function, the library is a resource for the
     research work conducted at MASC and has no link with administrative support.
   - The clerical pool, established to provide coverage for the laboratories during staff absences
     has become an FTE burden on MASC.
   - NOAA is constructing a new building on the Boulder campus to house NOAA’s ERL, the
     National Geophysical Data Center, and MASC offices.



                                                 67
Department of Commerce                                                       Final Report IPE-8569
Office of Inspector General                                                            August 1997

Western Administrative Support Center (WASC), Seattle, Washington

FY 1996                        Core Site-Specific Non-Core        Total
Number of Staff (FTE)          113.8      5         10            128.8
Budget (in thousands)         $6,372.3 $5,068.4   $7,831.0      $19,271.7

                                     Percent                      Percent
                          NOAA       of Total        Non-NOAA     of Total      Total
Number of Clients         2,763       90.83             279        9.17         3,042

Regional Area:          Serves 211 locations in Alaska, Arizona, California, Hawaii, Idaho,
                        Montana, Nevada, Oregon, Utah, Washington, Guam, American Samoa, and
                        the Trust Territories.

A. Description of core, non-core, and site-specific activities:
   - Procurement staff is organized by customer
   - Finance division is organized by teams, although some have distinct assignments (NPS
     only, and Alaska fisheries), while some assignments, such as travel, are commingled. The
     group handling PCS moves claims they are the experts for the Department and NOAA.

B. Characteristics:
   - WASC has an operational focus with the fleet of NOAA ships based at the Pacific Marine
     Center (which also now supervises operations of the Atlantic- and Gulf-based NOAA
     ships).
   - WASC fills an important niche in regard to the time-zone coverage for the Commerce field
     sites in Hawaii and Guam.
   - The region served by WASC has significant environmental cleanup issues involving the
     NOAA ships, the NMFS fishery labs, and the Pribilof Islands.
   - WASC has a strong record of hiring and accommodating employees with physical
     handicaps.
   - Due to a personnel shortage, WASC’s systems director also is acting as finance chief, with
     the effect of facilitating information technology solutions to enhance the productivity of
     finance division staff.
   - In addition to its other responsibilities, WASC also manages the NOAA Western Regional
     Center, consisting of other NOAA line offices and approximately 950 NOAA employees.




                                                68
Department of Commerce                                                         Final Report IPE-8569
Office of Inspector General                                                              August 1997

                                           Appendix B

                                      Best Practices:
               Other Agencies’ Approaches to Delivering Administrative Services

As part of our review, we visited and interviewed other federal agency officials to determine how
they deliver administrative services. A number of departments and agencies have begun to
restructure and streamline services in the administrative area. Like the Commerce Department,
other federal entities are facing NPR goals and other streamlining initiatives, as well as leaner
budgets. In general, we found that the Department delivers administrative services just as well as,
if not more effectively than, the agencies we examined. This is not to say that there is no room
for improvement in how the Department delivers administrative services. On the contrary, we
believe that numerous opportunities exist for a more efficient administrative support structure.

While meeting with other agency officials about administrative support and how services can be
streamlined and made more efficient, three common themes surfaced. First, almost all of the
officials we met with emphasized the importance of having top management support—including
budgetary resources—for any new changes or initiatives. Having someone (or several people) at
the highest level within the agency support and promote any proposed reorganization is critical to
success. Departmental officials must clearly articulate changes and provide necessary funding for
any investment costs. When it is made clear that the highest levels of the agency are promoting
the concept, employees will more readily accept the changes.

Second, officials pointed out that people are the biggest obstacle to restructuring, as most
individuals resist change. Furthermore, employees’ morale may plummet if they view the changes
as job threatening To overcome employee resistance, changes should be phased in gradually and
employees should be involved in any organizational redesign effort. A third theme that surfaced
was the importance of integrating automation into the way Commerce does business. Automation
will have a major impact on the Department’s current operations and will increasingly assist it in
reducing costs and improving performance.

The Department, in its efforts to streamline and restructure, must explore options and identify any
“best practices” that will help it to achieve its goals. Although no one agency had a perfect
administrative support structure, many are in the process of rebuilding. By examining other
agencies’ structures, the Department may select certain successful practices or techniques to assist
it in preparing for change. Below is a brief description of how the various agencies we visited
deliver administrative services.




                                                69
Department of Commerce                                                         Final Report IPE-8569
Office of Inspector General                                                              August 1997

Department of the Interior

Before December 1995, DOI operational and policy staff were located in the Office of the
Secretary. Since then, DOI has moved the operational staff—leaving the policy office intact—to
a newly established Service Center. The Center provides various administrative services to
headquarters units and a small percentage of operational assistance to the field. The Center will
be funded through FY 1997; thereafter, it will operate on a reimbursable basis.

Currently, each DOI bureau provides its own administrative support—with the exception of
payroll services, which are centralized in Denver—however, certain services are centrally funded
by DOI, based on established ratios. Bureaus, therefore, are encouraged to “shop around” and
obtain support from the Service Center or elsewhere if their in-house support is too expensive.
DOI believes automation will change business practices and is developing its own version of
CAMS.

Department of Transportation

Like the Department of the Interior, DOT headquarters separated its policy and operational staff
and established the Transportation Administrative Service Center (TASC) in November 1995.
Before this development, operational responsibilities for administrative services were assigned to
the Office of the Assistant Secretary for Administration. TASC, however, consolidated all
headquarters operations functions outside of this office. Located in the Office of the Secretary,
TASC, which operates under a working capital fund, receives direction and oversight from a
Board of Directors.

DOT has no department-wide central or regional support structure, with the exception of payroll
services, which are provided by the Federal Aviation Administration (FAA). Instead, each bureau
provides its own administrative support, and service delivery in these structures even differs. For
example, FAA has a regional structure under which each region provides administrative support
to its area offices. On the other hand, the Federal Transit Administration provides administrative
services from headquarters. Although TASC currently provides support to headquarters units
only, it anticipates supporting field units, too, as their budgets are reduced. Furthermore, TASC
services, which are to operate in a competitive, business-like manner, will also be marketed
outside DOT to provide greater economies of scale, thus reducing costs to individual customers.

Immigration & Naturalization Service (Department of Justice)

The INS currently has four administrative centers that provide support to about 22,000 people
located in both headquarters and field units. Before 1994, headquarters provided administrative
support in addition to the service centers. However, now the centers also service INS
headquarters.

                                                70
Department of Commerce                                                         Final Report IPE-8569
Office of Inspector General                                                              August 1997

INS’s goal is to have headquarters focus strictly on policy and the service centers focus on
operations. Currently all centers perform the same basic core functions, e.g., procurement,
personnel, and finance. INS recognizes the opportunity to streamline services, and is working on
a proposal to centralize the finance function at one location. Other processing-type functions will
also be consolidated to achieve greater efficiencies.

U.S. Customs Service (Department of the Treasury)

Administrative functions had been centralized at headquarters since 1985. Prior to that time,
administrative functions were decentralized among 7 regional offices. In October 1995, Customs
eliminated its regional offices and established 20 customs management centers (CMCs). Although
the Customs Service’s headquarters continued to manage its own administrative support (with the
exception of logistics and finance, which are centralized in Indianapolis), the CMCs were created
to provide administrative support to the field and serve as a liaison between the Customs
Service’s ports of entry and headquarters.

In addition to providing administrative support, the CMCs oversee and facilitate the core business
processes and coordinate with their counterpart Special-Agent-in-Charge offices. Each CMC
provides core administrative support, but some CMCs perform functions that are cross-serviced
to others. Customs plans to reexamine and determine what additional administrative functions
can be performed by the CMCs.

Department of Health and Human Services

In October 1995, HHS established a Program Support Center (PSC)—located in
headquarters—which provides administrative support services on a fee-for-service basis to HHS
components and other federal agencies. HHS bureaus have the option of providing their own in-
house support or acquiring services elsewhere, such as the PSC. Like DOT’s administrative
support center, the PSC receives oversight and direction from a Board of Directors.

Before the establishment of the PSC, HHS had 10 regional administrative support centers that
provided support to field operations. This field support structure was eliminated, however, and
now smaller operations—providing varying levels of service—exist to support HHS components.

U.S. Department of Agriculture

Although USDA consolidated its field network of agencies into mission areas, each bureau
basically continues to provide administrative services to its own field units. Several functions,
however, are provided centrally. For example, facilities, claims, communications, and civil rights
enforcement are provided at the departmental level.


                                                71
Department of Commerce                                                   Final Report IPE-8569
Office of Inspector General                                                        August 1997

USDA’s well-known National Finance Center (NFC) provides payroll services (among numerous
other services) to the Department as a whole as well as to more than 120 other agencies,
including Commerce. Operating on a fee-for-service basis, the NFC provides consolidated
payroll, personnel, and voucher and invoice payment systems as well as support services for
several government-wide processes, including the Federal Retirement Thrift Savings Plan.




                                            72
Department of Commerce                                                                     Final Report IPE-8569
Office of Inspector General                                                                          August 1997

                                       Appendix C: Supporting Data

ASC Budget History, FY 1992-1996


                                                                                                       Change
                 FY92             FY93               FY94                  FY95          FY96          FY92-96
 MASC           $6,135,886       $5,995,359         $6,085,524            $6,098,700    $5,395,243     -12.07%
 CASC           $6,136,422       $5,629,713         $5,704,929            $5,895,300    $5,608,536      -8.60%
 WASC           $6,750,412       $6,583,650         $7,013,957            $6,935,540    $6,185,215      -8.37%
 EASC           $6,244,482       $5,547,060         $5,193,960            $5,647,000    $5,168,649     -17.23%
 Total         $25,267,202      $23,755,783        $23,998,369           $24,576,540   $22,357,643     -11.52%

 deflator          0.93284           0.955022          0.973737                    1     1.030037



Procurement Workload Data (FY 1995)

 Category                                       EASC           MASC         CASC       WASC      Procurement,
                                                                                                 Grants, and
                                                                                                 Admin. Services
                 FTE                               2.37            9.4           4.0       5.5               8.35
    Small        No. of Transactions              2,092          5,107         4,436     3,452             3,475
  Purchases
                 Total Trans ($M)                 $11.0          $18.3         $19.0     $31.2             $34.1
                 Avg Trans Cost                  $5,262         $3,585        $4,285    $9,142            $9,827
                 No. of Trans/FTE                  883            543          1109        628               416
                 FTE                              12.85            9.2          15.3      19.0               41.9
                 No. of Transactions               648            399           910        630             1,684
 Contracts
                 Total Trans ($M)                 $29.3          $29.9         $31.3     $38.7            $145.6
                 Avg Trans Cost                 $45,200        $74,900       $34,400   $61,400           $86,500
                 No. of Trans/ FTE                  50             42             59        33                  40

Notes:
1. MASC contract transactions are under represented; they do not include the 59 contract actions totaling $37
   million associated with 13 grant and cooperative agreements.
2. Small purchase data was provided by the Department’s Office of Acquisition Management. Transaction count
   and dollars include purchase orders, delivery orders, blanket purchase agreements, and all modifications.
3. Contract data was provided by Commerce’s Office of Acquisition Management.
4. FY 1995 PGAS staff figures were provided, therefore, the “Trans per FTE” may be high. At the time of this
   report, FY 1996 figures had not been provided.




                                                          73
Department of Commerce                                                        Final Report IPE-8569
Office of Inspector General                                                             August 1997

                                          Appendix D

                       Prior Reports on Commerce Administrative Support

During this inspection, we reviewed past reports prepared by the Office of the Secretary, NOAA,
and the OIG (see Appendix D) dealing with many of the issues we address in this report. During
our review, we found relatively little corrective action has been taken in addressing some key
observations and findings. The following is a discussion of findings contained in various reports
and follow-up actions taken:

Office of Financial Management Report, July 1981

In July 1981, the Office of Financial Management issued a report, Management Plan for the
Consolidation of the Department’s Payroll, Personnel, and Administrative Payments Systems,
that recommended consolidating all of the payroll systems and all of the personnel systems and
outsourcing administrative payments to the U.S. Department of Agriculture’s National Finance
Center.

Action taken: Over 20 separate administrative payment offices were consolidated (not outsourced
as recommended by the study) into the Management Services Division (MSD), located in the
Office of the Secretary, Office of Information Systems. MSD became responsible for making
Department-wide payments for travel, imprest fund, FEDSTRIP, transportation, and purchase
orders. The remaining payments—blanket purchase orders, gasoline credit cards, utilities,
contracts, federal telephone system, and bankcard—continued to be processed through the
individual bureaus’ payment systems.

NOAA Draft Report, December 1988

In December 1988, a draft report entitled ASC Finance Consolidation Study (Revision 3),
recommended consolidating and outsourcing the Commerce-wide payments to the National
Finance Center in New Orleans or the Department of Veterans Affairs Finance Center in Austin.
Action taken: None.

Office of the Secretary, Office of Administration Memoranda, June 1989

In June 1989, the Office of Information Systems issued two position papers entitled, The Status
Quo and Cross-Servicing of Administrative Payment Systems by USDA, in a memorandum to the
Office of Finance and Federal Assistance. The status quo paper discussed the need to add 12
additional people to the payment office for automated data-processing support. The second paper
recommended entering into a cross-servicing agreement with the National Finance Center for
administrative payments, forecasting “significant savings.”

                                               74
Department of Commerce                                                             Final Report IPE-8569
Office of Inspector General                                                                  August 1997

Action taken: None.

NOAA Memorandum, August 1989

In August 1989, the NOAA Office of Administration Director sent a memorandum to the Deputy
Assistant Secretary for Administration and the Director of the Office of Finance and Federal
Assistance arguing against the National Finance Center option. The memo recommended, as an
alternative, the NOAA payment system, citing it as the most cost-efficient Department-wide
payment system.

Action taken: The consolidated departmental payments were shifted to NOAA.

OIG Report, September 1992

In September 1992, an OIG inspection entitled Finance Services Division, National Oceanic and
Atmospheric Administration, recommended returning FSD’s administrative payment processing
functions back to the bureaus because of system and operational weaknesses (including over 50
vulnerabilities), user difficulties with reconciliation, and user dissatisfaction with service and costs.
The report recommended that NOAA conduct a cost-benefit analysis to determine the future
direction of its administrative payment process.

Action taken: NIST pulled its payments out of NOAA and a cost-benefit analysis was never
conducted.

NOAA Report (Liedtke Study), July 1993

In July 1993, a NOAA report entitled An Exploratory Assessment of the Regional Administrative
Support Centers in the Department of Commerce (Phase II) explored, as a small part of a larger
study, the potential savings of consolidating the ASC administrative payment functions. The
savings (calculated by CASC) were deemed minimal and the centralizing option rejected. The
study stated that it is time to “more seriously consider...cross-servicing by another agency or
making the necessary investments in systems improvements.”

Action taken: None.

Office of Financial Management, September 1994

In September 1994, the Office of Financial Management issued a report entitled Administrative
Payments in Commerce which determined that the high-volume payment offices have the lowest
cost per payment. The report concluded that consolidating payments in NOAA would have the


                                                   75
Department of Commerce                                                       Final Report IPE-8569
Office of Inspector General                                                            August 1997

lowest cost but warned that it will also go against the Department’s management culture of
“bureau independence.”

Action taken: None to date.

NOAA Report (Hagemeyer Study), February 1996

In February 1996, NOAA’s Administrative Services Reinvention Study Group issued a report
with 11 recommendations. One recommendation, targeting the ASC and FSD finance operations,
proposed centralizing all Chief Financial Officer finance functions at FSD in Germantown,
Maryland. Another recommendation proposed to close EASC and shift its responsibilities to
NOAA Headquarters administrative units, and then close MASC and shift its responsibilities to
CASC.

Action taken: None to date.




                                               76
Department of Commerce                                                       Final Report IPE-8569
Office of Inspector General                                                            August 1997

                                          Appendix E

                                       Cost Estimate:
             Outsourcing Administrative Payments to the National Finance Center

Estimated Cost for the National Finance Center:

                                                  Average      Average Cost per
                                                  Number of    Employee for NFC
                                                  Employees    Systems*
  Forest Service (43,749 employees)

  Natural Resources Conservation Service           23,055            $180.79
  (13,316 employees)
  Rural Housing and Community
  Development Service (12,100 employees)



                                  Employees (less PTO,      Average Cost per     Estimated
                                  TA, NIST)                 Employee for NFC     Cost
                                                            Systems*
  Department of Commerce                 25,577                  $180.79          $4,624,066

All employee counts are based on the NFC “average number of employees paid per month.”

NPS and DPS payments and the corresponding National Finance Center payment systems
included in the cost analysis:

Acronym          NFC System                Acronym          NFC System

FEDS             FEDSTRIP                  FPDS             Federal Procurement Data System
IMPF             Imprest Funds             FTSP             Federal Telephone System Payments
TRAN             Transportation            MISC             Miscellaneous Payments
PRCH             Purchase Orders           TELE             Vendor Payments
TRAVEL           Travel                    UTNV             Utility Vendors
CRED             Gasoline Credit Cards



                                              77
